<html>
<title> - VISA SECURITY AND OVERSTAYS: HOW SECURE IS AMERICA?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                     VISA SECURITY AND OVERSTAYS: 
                         HOW SECURE IS AMERICA?

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON BORDER
                         AND MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2013

                               __________

                           Serial No. 113-18

                               __________

       Printed for the use of the Committee on Homeland Security



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE

85-614 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC 
20402-0001







                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Vacancy
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Jeff Duncan, South Carolina          Sheila Jackson Lee, Texas
Tom Marino, Pennsylvania             Loretta Sanchez, California
Steven M. Palazzo, Mississippi       Beto O'Rourke, Texas
Lou Barletta, Pennsylvania           Tulsi Gabbard, Hawaii
Chris Stewart, Utah                  Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
            Paul L. Anstine, II, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security...................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5

                               Witnesses

Mr. John Wagner, Acting Deputy Assistant Commissioner, Office of 
  Field Operations, Customs and Border Protection, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................     7
  Joint Prepared Statement.......................................     9
Mr. James Dinkins, Executive Associate Director, Homeland 
  Security Investigations, Immigration and Customs Enforcement, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    15
  Joint Prepared Statement.......................................     9
Mr. Shonnie Lyon, Acting Director, Office of Biometric Identity 
  Management, National Protection and Programs Directorate, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    17
  Joint Prepared Statement.......................................     9
Ms. Rebecca Gambler, Director, Homeland Security and Justice, 
  Government Accountability Office:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20

 
                     VISA SECURITY AND OVERSTAYS: 
                         HOW SECURE IS AMERICA?

                              ----------                              


                         Tuesday, May 21, 2013

             U.S. House of Representatives,
      Subcommittee on Border and Maritime Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Duncan, Palazzo, Barletta, 
Stewart, Jackson Lee, O'Rourke, and Gabbard.
    Also present: Representative Bilirakis.
    Mrs. Miller. The Committee on Homeland Security the 
Subcommittee on Border and Maritime Security will come to 
order. The subcommittee is meeting today to examine our 
Nation's visa security efforts.
    Our witnesses today are John Wagner, who is acting deputy 
assistant commissioner from Customs and Border Protection; 
James Dinkins, who is the executive associate director of 
Homeland Security Investigations; Shonnie Lyon, who is the 
acting director of the National Protection and Programs 
Directorate Office of Biometric Identity Management; and 
Rebecca Gambler, director of Homeland Security and Justice 
Section for the Government Accountability Office. I will make a 
more formal introduction after the opening statements.
    Our Nation is in the midst of a debate on how to best 
reform our broken immigration system. As we explore potential 
changes to our immigration processes, we must also strengthen 
our border security efforts. A key part of both of those 
efforts must be serious reforms to our visa process. According 
to a widely-circulated 2006 Pew Hispanic Center study, as much 
as 40 percent of all illegal aliens who come into our country 
do not cross the desert. They actually come in through the 
front door.
    They come in through our land, our sea, and air ports of 
entry, with permission, and then they overstay their visas. If 
we are serious about border security, the Congress needs to 
look beyond just the traditional borders--the Northern, the 
Southern maritime borders--and must reduce the ability of 
people to overstay their visas. Visa security is by no means a 
new challenge. We have known for some time that our visa 
process is vulnerable to exploitation by terrorists and others 
who seek to do us harm.
    We all recall that at least four of the 9/11 hijackers were 
here on visa overstays or were out of status. Among the most 
important weaknesses the attackers exploited was the porous 
outer ring of border security. The hijackers passed through 
U.S. border security a combined total of 68 times without being 
detected. The man who attempted to conduct a suicide attack on 
the Capitol just last year had been in the country since 1999; 
was here on a tourist visa overstay.
    Another individual arrested in the aftermath of the Boston 
Marathon bombings, who may have helped destroy evidence, was 
able to return to the United States despite being out of status 
on his student visa. These events highlight the fact that 
vulnerabilities in our visa processing system can have 
catastrophic consequences. The American people need to know how 
many more visa overstayers are out there who pose a serious 
threat to the security of our homeland.
    Clearly, more must be done to ensure the integrity of the 
visa system, including enhancements to Immigration and Customs 
Enforcement's ability to identify and to promptly remove those 
who overstay their visa. Pushing out the border and conducting 
more vigorous, more rigorous vetting of VISIT applicants 
overseas thru the Visa Security Program, which stations ICE 
agents overseas, as well as the inclusion of fingerprints into 
the visa application process, have made the visa process more 
secure than it was, certainly, before 9/11.
    But as well, we are also very concerned with our ability to 
track and to promptly remove overstays who remain in our 
country. ICE does not have a way to identify and track down 
overstays who entered the country prior to 2003, before US-
VISIT was created, and we are concerned that we do not even 
have a good handle on the total number of overstayers in the 
country right now. I understand that the Department has plans 
to release some of the overstay data by the end of the year.
    However, we are debating these issues right now, and I 
would like to see the data while we are discussing immigration 
reform, not after. I look forward to hearing from our witnesses 
today on progress made since the creation of US-VISIT, now 
called the Office of Biometric Identity Management, identifying 
overstays, especially those that pose National security and 
public safety threats. I think that Members will be most 
interested in how the Department of Homeland Security plans to 
implement a comprehensive exit system that will prevent 
terrorists from successfully exploiting the visa system; a 
requirement, I might add, that was first mandated in 1996.
    If we are serious about controlling who comes into the 
Nation and preventing another attack we need to get serious 
about an exit program, a robust exit program. Biometric might 
not be the right solution until the technology is mature enough 
to not interfere with passenger flow. But we certainly want to 
be interested--we will be interested in hearing from the 
witnesses on how we can move forward with a workable plan in 
the interim.
    I certainly don't want to discount the progress that has 
been made especially over the last 2 years in connecting many 
of the DHS's databases to the arrival and departure information 
system, which has helped to narrow down the number of people we 
are concerned about. But we cannot have vulnerabilities that we 
have known about for some time remedied only after a high-
profile incident like that that happened, that tragedy in 
Boston. Last Congress, this subcommittee held several hearings 
on the backlog of unvetted records that numbered more than 1.6 
million.
    Those have been screened for terrorism and public safety 
concerns, but a persistent backlog of unmatched records 
remains. According to the preliminary findings of the GAO 
report, there are more than 1 million of these records; a 
million people that we cannot confirm whether or not they have 
left the country. ICE's prioritization scheme virtually ensures 
that a large backlog will continue to exist well into the 
future. Visa security is a critical component of our border 
security efforts, and we really cannot reform our immigration 
system without taking a hard look at the Department's efforts 
to develop a robust exit system.
    The American people need to be confident that all of the 
holes in the border are as secure as possible. So we will be 
very interested in hearing from the witnesses on that point.
    With that, I would like to yield to the Ranking Member, the 
gentlelady from Texas, for her opening statement.
    Ms. Jackson Lee. Thank you, Madam Chairwoman, and thank you 
for having--holding this hearing. I am glad to join you in 
holding this hearing today to examine the issue of visa 
overstays--those who enter this country through the proverbial 
front door, but fail to depart in a timely way--and their 
effect on our Nation's security. I know it goes without saying, 
and it has been said over and over again, and it is a reminder 
that I think--however, that is very important.
    That those who were engaged in the 9/11 horrific and 
heinous terrorist act were, in fact, some of them, visa 
overstays. We have had that scar for, now, 12 years going on 13 
years. It should be a very important reminder. However, we know 
that people who are visa overstays are, by and large, 
individuals who seek an opportunity in this country, are 
students, family members. But even beyond that, knowing that 
most of these are innocent and desirous of good things, this is 
an important process.
    So I want to thank the gentlelady from California and the 
gentleman from Pennsylvania in their discussion of the mark-up, 
who mentioned the idea of a concept to deal with visa 
overstays, which I asked to join them. I look forward to my 
staff working with them so that we can present an idea that 
will be constructive. I think this hearing, overall, will be 
enormously constructive as we move the Homeland Security border 
bill, border security bill, to the floor.
    We had a very active bipartisan discussion about visa 
overstays, as I have just said, in our recent subcommittee 
mark-up H.R. 1417, the Border Security Results Act of 2013. 
Last week, I was pleased to support an amendment at the full 
committee mark-up of the bill to require the Department of 
Homeland Security to develop an implementation plan for a 
biometric exit capability at ports of entry, which is an 
essential part of our effort to address overstays.
    I am committed to working with my colleagues on this very 
important issue. So far, this Congress' subcommittee has 
focused much of its oversight in legislative efforts on what 
DHS must do better--to better secure our land borders, and the 
Southern Border in particular. While this is a critically 
important matter, it represents only one part of broader border 
security and immigration enforcement issue. Addressing visa 
overstays is certainly equally important.
    Indeed, finding a way to deal with the overstay issue will 
likely be essential to any immigration reform and border 
security package considered in Congress. It is my hope that as 
the great work of this subcommittee, Madam Chairwoman, 
continues, and the moving of the border security bill, that we 
will be in front of any question to be able to answer such so 
that no obstacles stop us from doing what really will make this 
country safer. That is, comprehensive immigration reform.
    I want all the questions answered, and I want us to have 
solutions. Yes, I think it would be very important to put in 
new processes for this effort of visa overstays. Finding a way 
to deal with the overstay issue will be very important. Just 
this week, an amendment to address this issue was accepted at 
the mark-up of the Senate immigration bill. We have examined 
this issue regularly in Judiciary Committee, where I am also a 
member.
    It is important to note that overstays are one of the 
reasons for many questions on the immigration control system. A 
small handful of those who overstay their visas may also pose a 
threat, as I mentioned earlier, as it relates to the 9/11 
hijackers. There are many important questions to be answered 
regarding visa overstays, and I hope we can have a productive 
dialogue about some of those questions here today.
    For example, what security issues do individuals who 
overstay their visas pose to the United States? Frankly, I 
believe that an inventory of these overstays is important, even 
as we try to craft our legislative fix. Is there an ability for 
DHS to know, by having a list and date of entry and date of 
departure? Is that inventory, is that digitized, is it on a 
computer, can it be pulled up by birth date? So what is DHS 
doing to identify and locate individuals who are visa 
overstays, but also may pose a threat?
    What are the indicia that are used to be able to track 
individuals, even now, without a better construct? What can be 
done to prioritize enforcement resources and enhance efforts to 
address overstays? I will say that I am encouraged by the 
recent shift of overstay analysis and exit operation 
responsibilities from US-VISIT to ICE and CBP. I am hopeful 
that this new configuration of responsibilities will help ICE 
and its DHS partners address potential overstays in a more 
efficient way.
    I want to qualify and say that I am mindful that these 
individuals are mostly harmless and that they are here because 
our immigration system does not provide them a pathway. That is 
why we must match these two processes together. I know that we 
have a very active business community on the Southern Border, 
active business community on the Northern Border. I know that 
business is done. I know that people come over with visas.
    Who knows what part of businesses, what part of families, 
what part of tourists, what part of students? We know that DHS 
currently has over a million unmatched records representing 
potential overstays. While these individuals have been, and 
continue to be, vetted against National security and criminal 
database, we hope, we have no record of them exiting the 
country. DHS has reduced the number of unmatched records 
significantly from just a couple of years ago, but the problem 
persists.
    I do want to take note of the work that DHS has done. I 
want to hear from ICE and GAO today about what more can be done 
to reduce the number of unmatched records allowing DHS to focus 
on locating individuals who we have confidence are still in the 
country. I am curiously optimistic--cautiously optimistic that, 
given CBP responsibility for developing and deploying, a 
biometric exit system will help DHS make progress on this long 
overdue mandate.
    I know as CBP and ICE come before these committees, 
sometimes they ask the question: What are we expected to do? I 
want to qualify, for the last time, as I close my remarks, to 
indicate that we know that there are provisions such as 
prosecutorial discretion that ICE uses. I want to make sure 
that my comments do not in any way undermine my enthusiasm 
about that process when it is needed, when it is necessary, and 
when it is warranted.
    I also want to make note that we are running into, Madam 
Chairwoman, some difficulties in a badging issue in my very 
large airport, in Houston, Texas. I am thinking that that is an 
issue of sequestration and the lack of dollars. I hope that we 
will have that matter resolved. So when CBP comes and ICE 
comes, I hope they know that we respect what they do. We want 
to hear about the concerns that they have. We want to make sure 
that the laws that they have to be merciful are not countered 
because we want them to be efficient and right.
    Congress first mandated an entry-exit system for visitors 
to the United States in 1996. While DHS has made significant 
progress by implementing biometric entry system, a solution for 
biometric exit has been far more difficult. Let me just close 
by indicating that there has been a troubled history with the 
system of kiosks. We need to find a clear path forward on the 
biometric exit system. I want to hear more today. I want to 
know what we can--how do we work with the biometric system.
    I am pleased to see the improvements, but I believe it is 
very important for this discussion today to ensure that we have 
a very secure border and that we work hand-in-hand with the 
idea of comprehensive immigration reform. I thank the 
gentlelady for her yielding, and I yield back my time.
    [The statement of Ranking Member Jackson Lee follows:]
             Statement of Ranking Member Sheila Jackson Lee
                              May 21, 2013
    I thank Chairman Miller for holding this hearing today to examine 
the issue of visa overstays--those who enter this country through the 
proverbial front door but fail to depart in a timely way--and their 
effect on our Nation's security.
    We had a very active, bi-partisan discussion about this issue 
during our recent subcommittee mark-up of H.R. 1417, the Border 
Security Results Act of 2013.
    Last week, I was pleased to support an amendment at the full 
committee mark-up of the bill to require the Department of Homeland 
Security to develop an implementation plan for a biometric exit 
capability at ports of entry, which is an essential part of our effort 
to address overstays.
    I am committed to working with my colleagues on this very important 
issue.
    So far this Congress, the subcommittee has focused much of its 
oversight and legislative efforts on what DHS must do to better secure 
our land borders, and the Southern Border in particular.
    While this is a critically important matter, it represents only one 
part of the broader border security and immigration enforcement issue.
    Addressing visa overstays is certainly equally important.
    Indeed, finding a way to deal with the overstay issue will likely 
be essential to any immigration reform and border security package 
considered in Congress.
    Just this week, an amendment to address this issue was accepted at 
the mark-up of the Senate immigration bill.
    We have examined this issue regularly in the Judiciary Committee, 
where I am also a Member.
    It is important to note that overstays are more than an immigration 
control concern.
    A small handful of those who overstay their visas may also pose a 
threat to our homeland security, like several of the 9/11 hijackers.
    There are many important questions to be answered regarding visa 
overstays, and I hope we can have a productive dialogue about some of 
those questions here today.
    For example, what security issues do individuals who overstay their 
visas pose to the United States? What is DHS doing to identify and 
locate individuals who may pose such a threat?
    What can be done to prioritize enforcement resources and enhance 
efforts to address overstays?
    I will say that I am encouraged by the recent shift of overstay 
analysis and exit operations responsibilities from US-VISIT to ICE and 
CBP.
    I am hopeful that this new configuration of responsibilities will 
help ICE and its DHS partners address potential overstays in a more 
efficient way.
    We know that DHS currently has over a million ``unmatched records'' 
representing potential overstays.
    While these individuals have been and continue to be vetted against 
National security and criminal databases, we have no record of them 
exiting the country. DHS has reduced the number of unmatched records 
significantly from just a couple of years ago, but the problem 
persists.
    I want to hear from ICE and GAO today about what more can be done 
to reduce the number of unmatched records, allowing DHS to focus on 
locating individuals who we have confidence are still in the country.
    I am cautiously optimistic that giving CBP responsibility for 
developing and deploying a biometric exit system will help DHS make 
progress on this long-overdue mandate.
    Congress first mandated an entry-exit system for visitors to the 
United States in 1996.
    While DHS has made significant progress by implementing a biometric 
entry system, a solution for biometric exit has been far more difficult 
to come by.
    We have seen the troubled history of this effort, from a system of 
kiosks located in inconvenient and inconsistent locations in airports, 
to two pilots involving CBP and TSA, each of which had advantages and 
disadvantages.
    What is needed now is a clear path forward on biometric exit, and I 
hope to hear more from our witnesses today on what that path will be.
    While not a substitute for biometric exit, I am pleased to see 
recent efforts to enhance biographic exit, particularly for individuals 
crossing the Northern Border.
    However, addressing biographic exit at the Southern Border is more 
problematic and will take more resources and ingenuity to develop a 
workable solution.
    America's borders will only be secure when we address not only 
those who walk through the desert to come here, but also those who 
arrived in this country through our front door.

    Mrs. Miller. I thank the gentlelady for her comments. Other 
Members of the committee are reminded that opening statements 
might be submitted for the record. I would just say, before I 
introduce the witnesses, that immigration reform is of 
interest, as our country debates this, by other countries as 
they are watching what we are doing in relation to border 
security. It is interesting to note that that is particularly 
so with visa securities, as evidenced by the presence of a 
media outlet here today from Russia, who is covering these 
proceedings.
    I just point that out for the Members. We have four 
distinguished witnesses before us today for this important 
topic. First of all, Dr.--or, excuse me, Mr. John Wagner--you 
could be a doctor--is the acting deputy assistant commissioner 
from the U.S. Customs and Border Protection. Mr. Wagner 
formerly served as the executive director of admissions and 
passenger programs, with responsibility for all traveler-
related policies and programs, including the Trusted Traveler 
Program, the electronic system for travel authorization, and 
the Immigration Advisory Program. And the Fraudulent Document 
Analysis unit.
    Mr. James Dinkins, who has been here on other occasions--we 
welcome you back, sir, as well--is the executive associate 
director of Homeland Security Investigations. Prior to assuming 
his current position, Mr. Dinkins held a number of key 
leadership positions within ICE, including acting director for 
the Office of Professional Responsibility, chief of ICE's 
Financial Investigation Programs, and assistant special agent 
in charge for HSI Michigan.
    Mr. Shonnie Lyon is the acting director of the National 
Protection and Programs Directorate Office of Biometric 
Identity Management, OBIM, formerly known as the US-VISIT 
program. It is the lead entity in the Department of Homeland 
Security for Biometric Identity Management Services across the 
Government. Mr. Lyon is also responsible for overseeing the 
day-to-day operations of that program.
    Ms. Rebecca Gambler, again, has been before our committee 
on a number of occasions in this Congress and the last 
Congress, is the acting director in the U.S. Government 
Accountability Office's Homeland Security and Justice Team. Ms. 
Gambler leads the GAO's work on border security and immigration 
issues.
    The witnesses' full written statements will appear in the 
record. The Chairwoman now recognizes Mr. Wagner for his 
opening comments for 5 minutes.

STATEMENT OF JOHN WAGNER, ACTING DEPUTY ASSISTANT COMMISSIONER, 
OFFICE OF FIELD OPERATIONS, CUSTOMS AND BORDER PROTECTION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Wagner. Good morning, Chairwoman Miller, Ranking Member 
Jackson Lee, and distinguished Members of the subcommittee. 
Thank you for the opportunity to appear before you on behalf of 
the dedicated men and women of U.S. Customs and Border 
Protection to discuss our role in addressing visa overstays.
    CBP is responsible for securing our Nation's borders while 
facilitating the flow of legitimate international trade and 
travel that is so vital to our Nation's economy and prosperity. 
Within this broad responsibility, our priority mission remains 
to prevent terrorists and terrorist weapons from entering the 
United States. We recognize that those who pose a National 
security or public safety threat may seek to commit immigration 
fraud by way of overstaying a visa in order to remain in the 
United States.
    CBP operates at more than 320 ports of entry and processes 
nearly 1 million travelers each day as they enter the United 
States. About 30 percent of those, about 100 million people a 
year, and travelers who arrive via commercial aviation. DHS and 
CBP have developed and strategically deployed resources to 
detect, assess, and, when necessary, mitigate risks, including 
potential overstays at the earliest possible point and 
throughout the travel continuum.
    Prior to a foreign national traveling to the United States, 
they must either obtain a visa from the Department of State or 
an Electronic System for Travel Authorization, also known as an 
ESTA, if they are traveling under the visa waiver program by 
air or sea. When applying for a visa, travelers must submit an 
application and provide fingerprints for enforcement screening. 
These fingerprints are submitted to IDENT, maintained by the 
Office of Biometric Identity Management, OBIM, to determine if 
there is any adverse action, and adverse information, 
available.
    VWP travelers apply for an ESTA on-line prior to travel, 
and the biographical application data is correlated against and 
maintained in CBP's text database. CBP utilizes the visa and 
the ESTA information, as well as passenger name record data and 
Advance Passenger Information Manifests, also known as APIS, to 
assess the risks of all passengers, regardless of citizenship, 
on all inbound and outbound international flights before they 
depart. CBP's National Targeting Center, or the NTC, analyzes 
traveler data through the advantaged targeting system and uses 
advanced software to apply intelligent-driven targeting rules 
to conduct a risk assessment.
    For air travelers, some persons of interest are referred 
for further questioning prior to boarding the plane. CBP has 
officers located in 11 airports in 9 foreign locations as part 
of the Immigration Advisory Program to identify and address 
passengers of concern long before they reach the physical 
border of the United States. These CBP officers work in 
partnership with foreign law enforcement officials to evaluate 
potential risks, including potential possible overstays, and 
then work in coordination with commercial airlines to issue no-
board recommendations to the airline to keep the suspected 
high-risk or inadmissible passengers from traveling to the 
United States.
    In locations where we do not have immigration advisory 
officers stationed, we also work through our National Targeting 
Center and our regional carrier liaison groups to contact 
airlines directly in order to advise of no-board 
recommendations. The NTC vetting process for international 
passengers continues while the flight is en route to the United 
States in order to identify any travelers who, although not 
necessarily National security risks, may need a more thorough 
inspection on the first port of entry upon arrival in the 
United States.
    At the land border ports, advanced information is generally 
not available unless the passengers are enrolled in a Trusted 
Traveler Program, like NEXUS or SENTRI, or if they are arriving 
by rail or chartered bus and that company is voluntarily 
submitting APIS data to CBP. On the land border, we are well-
positioned to address admissibility and overstay risk. The 
Western Hemisphere Travel Initiative reduced the number of 
acceptable documents from more than 8,000 to a core set of six, 
allowing CBP--through the application of RFID technology--to 
increase the percentage of documents verified and queried from 
CBP from 5 percent in 2005 to over 97 percent today.
    The ability for CBP officers to access real-time and 
reliable information about non-immigrants seeking 
administration to the United States is critical to our anti-
terrorism and anti-fraud efforts. Upon arrival in the United 
States, all persons are inspected by CBP officers. This 
inspection begins with the officers scanning the traveler's 
entry document and performing a query of several databases. 
Most foreign nationals arriving at U.S. airports, CBP officers 
will capture their fingerprints and photographs, which is used 
to verify identity against the information provided by the 
Department of State at the time of visa application.
    In addition, each traveler is interviewed by a CBP officer 
to determine the purpose and their intent to travel, and 
whether any further inspection is necessary. Outbound 
inspection, namely the collection of exit data for persons 
departing the United States, is crucial in order to match entry 
records and, therefore, determine who is lawfully abiding by 
the terms of their administration and to sanction those who are 
not. The exit system in the air environment is similar to 
inbound targeting, in that CBP obtains advanced outbound 
manifest information through the APIS system from air and sea 
carriers prior to departure.
    As soon as APIS indoor becomes available, CBP immediately 
begins the screening and vetting process of the outbound flight 
for possible matches to the terrorist screening database as 
well as other law enforcement records. At the land border, the 
standard mechanism for gathering departure information is the 
collection of the form I-94 or I-94W on the traveler's exit. 
CBP is working with the Canadian government under the Beyond 
the Border Plan also to facilitate the exchange of entry 
information so that the entry into one country is considered an 
exit from the other in the land border environment.
    A pilot of this exchange was completed in January of this 
year, and phase two will commence at the end of next month, 
where both countries will exchange data on third-country 
nationals. All arrival and departure information collected by 
CBP is submitted to the Arrival and Departure Information 
System, also known as ADIS, which is available to ICE and 
Department of State and other agencies to assist with the 
determination and enforcement of overstays.
    DHS has made significant progress in preventing terrorists 
from exploiting the visa process, and further technological 
investments will enhance DHS and CBP's ability to address 
threats in a more effective and efficient manner than before. 
We will continue to work closely with our partners to combat 
visa fraud and identify potential travelers to the United 
States who may pose a threat.
    Thank you for allowing me the opportunity to testify today, 
and I look forward to answering any of your questions.
    [The joint statement of Mr. Wagner, Mr. Dinkins, and Mr. 
Lyon follows:]
Joint Prepared Statement of James A. Dinkins, John Wagner, and Shonnie 
                                  Lyon
                              May 21, 2013
                              introduction
    Chairman Miller, Ranking Member Jackson Lee, and distinguished 
Members of the subcommittee. Thank you for the opportunity to discuss 
the efforts of the U.S. Department of Homeland Security (DHS) to 
prevent the exploitation of our non-immigrant visa system by terrorists 
and criminals. Every day, Federal, State, local, and Tribal government 
officials verify the identities of individuals for a variety of 
purposes to determine whether they pose a risk to the United States and 
whether they meet the requirements for a specific Government benefit or 
credential. Aliens who violate their immigration status and overstay 
their authorized periods of admission implicate critical areas of DHS's 
mission to protect National security and promoting the integrity of our 
immigration system.
  dhs overseas presence and coordination with the u.s. department of 
                              state (dos)
    Stopping threats before they reach our shores is one of DHS's most 
important priorities. The U.S. Immigration and Customs Enforcement 
(ICE) Office of International Affairs has personnel in 75 offices in 48 
countries who collaborate with international counterparts and Federal 
partner agencies in joint efforts to disrupt and dismantle 
transnational criminal organizations engaged in money laundering, 
contraband smuggling, weapons proliferation, forced child labor, human 
rights violations, intellectual property rights violations, child 
exploitation, human smuggling and trafficking, and many other 
violations. Additionally, ICE facilitates the repatriation of 
individuals with final orders of removal, returning violators and those 
unlawfully present to their home countries.
    Effective border security requires broad information sharing and 
cooperation among U.S. agencies. In October 2006, ICE entered into to a 
memorandum of understanding (MOU) with the DOS Bureau of Consular 
Affairs in order to exchange visa and immigration data. The agreement 
has allowed ICE and DOS to exchange information contained in each 
other's electronic databases pertaining to foreign persons seeking 
entry into the United States. This exchange of information allows DOS 
Consular Affairs personnel to query and access ICE and U.S. Customs and 
Border Protection (CBP) immigration violator records contained in ICE's 
Enforcement Integrated Database. DOS Consular Affairs personnel can 
then take into consideration prior immigration violations when 
adjudicating visa applications for foreign persons who have applied to 
enter the United States. The exchange of information between DOS and 
ICE also allows ICE enforcement personnel to query the DOS Consular 
Consolidated Database and access visa application information for 
foreign persons who are being investigated by ICE.
    In January 2011, ICE signed an MOU outlining roles, 
responsibilities, and collaboration between ICE and the DOS Bureaus of 
Consular Affairs and Diplomatic Security. The MOU governs the day-to-
day operations of ICE agents conducting visa security operations at 
U.S. embassies and consulates abroad. To facilitate information sharing 
and reduce duplication of efforts, ICE and DOS conduct collaborative 
training and orientation prior to overseas deployments. Once they are 
deployed to overseas posts, ICE and DOS personnel work closely together 
in working groups, meetings, training, and briefings, and engage in 
regular and timely information sharing. ICE continues to evaluate the 
need to screen and investigate additional visa applicants at high-risk 
visa-issuing posts beyond the 19 such posts at which the agency 
currently operates. ICE will continue to conduct joint site visits with 
DOS to identify locations for deployment based on emerging threats. We 
look forward to continuing to report back to you with updates on this 
process.
    In addition, CBP uses advance information and a select overseas 
footprint to address concerns long before they reach the physical 
border of the United States. Using its Automated Targeting System, CBP 
leverages all available advance passenger data, including the Passenger 
Name Record (PNR) and Advance Passenger Information System data, United 
States-bound travel reservations, Electronic System for Travel 
Authorization applications, visa applications, passenger manifests, 
previous crossing information, intelligence, and law enforcement 
information, as well as open-source information in its anti-fraud and 
anti-terrorism efforts at the National Targeting Center (NTC). 
Immigration Advisory Program officers work in partnership with foreign 
law enforcement officials to evaluate potential risks, including 
possible overstays, and then work in coordination with commercial air 
carriers to issue no-board recommendations to the airline to keep 
suspected high-risk or inadmissible passengers from traveling to the 
United States. In fiscal year 2012, CBP made more than 9,500 no-board 
recommendations to carriers.
    The NTC vetting process for international passengers continues 
while the flight is en route to the United States in order to identify 
any travelers who, although not necessarily National security risks, 
may need a more thorough inspection at the first port of entry upon 
arrival in the United States.
                       dhs visa security program
    The Homeland Security Act directs DHS to assist in the 
identification of visa applicants who seek to enter the United States 
for illegitimate purposes, including criminal offenses and terrorism-
related activities. The visa adjudication process often presents the 
first opportunity to assess whether a potential non-immigrant visitor 
or immigrant poses a threat to the United States. The Visa Security 
Program (VSP) represents ICE's front line in protecting the United 
States against terrorists and criminal organizations by preventing 
foreign nationals who pose as a threat to National security from 
entering the United States.
    ICE deploys trained special agents overseas to high-risk visa 
adjudicating posts in order to identify potential terrorist and 
criminal threats before they reach the United States by conducting 
targeted, in-depth reviews of individual visa applications and 
applicants prior to visa issuance, and making recommendations to 
consular officers to refuse or revoke visas when warranted. DHS actions 
complement the consular officers' screening, applicant interviews, and 
reviews of applications and supporting documentation.
    In March 2010, the NTC implemented a program to conduct continuous 
vetting of valid U.S. nonimmigrant visas. Recurrent vetting ensures 
that changes in a traveler's visa status are identified in near real-
time, allowing CBP to timely determine whether to provide a ``no-board 
recommendation'' to a carrier, to recommend that DOS revoke the visa, 
or to notify the appropriate domestic ICE office regarding individuals 
determined to be within the United States. Since the program's 
inception, DOS has revoked more than 4,852 visas based on requests from 
CBP on information uncovered after a visa was issued.
    In support of the VSP, ICE, and CBP, in collaboration with DOS, 
have initiated an automated pilot program to enhance on-going visa 
security efforts. The Pre-Adjudicated Threat Recognition Intelligence 
Operations Team (PATRIOT) initiative is the automated screening of visa 
application information against DHS holdings prior to interview. The 
process includes in-depth vetting of applicants identified as having 
potential derogatory information, who may be of investigative interest, 
or ineligible to receive U.S. visas. The PATRIOT initiative takes a 
risk-based approach and uses interagency resources from ICE, CBP, DOS, 
and the intelligence community to identify National security, public 
safety and other visa concerns. In 2012, Visa Security Program special 
agents screened more than 1.3 million visa applicants in collaboration 
with the DOS. In 2014, VSP will enhance visa vetting by increasing 
automated data exchange with DOS and CBP's NTC so that the flow of on-
line visa information to DHS systems will be automated and information 
will be sent back to DOS also using an automated interface. ICE will 
leverage modernization efforts to increase investigations of visa 
applicants who pose the greatest threats to National security such as 
terrorism, counter-proliferation and export violations, and human 
rights and war crime violations.
                  student and exchange visitor program
    The Student and Exchange Visitor Program (SEVP) is funded by fees 
collected from non-immigrant students, exchange visitors, and 
participating schools. It manages information on non-immigrants whose 
primary reason for coming to the United States is to study at U.S. 
institutions certified for inclusion in the Student and Exchange 
Visitor Information System (SEVIS) database. SEVIS tracks non-immigrant 
students, exchange visitors, and their dependents during their 
authorized stays in the United States.
    Over the past several months, DHS has taken steps to upgrade SEVIS. 
Earlier this month, DHS implemented a technological solution that 
ensures that CBP inspectors at our ports of entry have the most current 
information regarding a student visa holder's status at the time of 
their entry and exit from the United States. On a daily basis CBP's 
TECS database will be updated with a record of individual status 
changes to an individual's I-20. Thus, if that individual presents 
themself for inspection before a CBP Officer, the officer would see 
that there was a status indication change and the I-20 should be 
checked/validated via SEVIS to assist in a proper admissibility 
decision. These improvements will be supplemented later this month 
through a system upgrade that improves SEVIS's interface with the 
Arrival Departure Information System (ADIS), which displays critical 
travel data such as those found on the form I-94 (admission number, 
passport expiration date, and visa expiration date). This upgrade will 
automate the lookout for SEVIS violators and improve communication 
between the two systems in order to better identify overstays using 
internal reporting capabilities and security control remediation for 
authorized users including CBP Officers. An additional upgrade allows 
DOS to also access and record information in SEVIS records, which 
further enhances our situational awareness of foreign students.
    SEVIS contains the records of more than 1.1 million active non-
immigrant students, exchange visitors, and their dependents, as well as 
information on approximately 10,000 SEVP-certified institutions. SEVP 
regulates schools' eligibility to enroll non-immigrant students for 
academic and vocational training purposes, and manages participating 
schools as well as students in the F (academic) and M (vocational) visa 
classifications and their dependents. DOS manages the Exchange Visitor 
Program for non-immigrants in the J visa classification, which enables 
foreign nationals to come to the United States to teach, study, conduct 
research, demonstrate special skills, or receive on-the-job training 
for periods ranging from a few weeks to several years.
    SEVP is responsible both for certifying schools and for withdrawing 
certification from non-compliant schools. The certification process 
supports the law enforcement functions of furthering National security 
and protecting the integrity of our Nation's borders by providing 
consistent, comprehensive oversight while preserving the Nation's 
tradition of welcoming non-immigrant students and exchange visitors. 
SEVP collects, maintains, and provides information to interagency 
partners so that only legitimate non-immigrant students and exchange 
visitors gain entry to, and remain in, the United States. The SEVP 
program provides timely information to support the Department's mission 
and facilitates the sharing of data with our Federal partners. 
Additionally, the data maintained by SEVP in SEVIS supports the DOS's 
Bureau of Consular Affairs visa process by providing advanced 
electronic data on non-immigrant visa applicants prior to visa 
issuance.
    The non-immigrant student and exchange visitor programs that bring 
F, J, and M visa holders to the United States are of immense value to 
all countries involved, as they serve to strengthen relations between 
our Nation and others while fostering intercultural understanding. 
These programs produce economic benefits as well with the U.S. 
Department of Commerce estimating that non-immigrant students, exchange 
visitors, and their dependents contributed more than $21 billion to the 
U.S. economy through their expenditures on tuition and living expenses 
during the 2011-2012 academic year.
    SEVP has been working diligently to address the Government 
Accountability Office (GAO) recommendations contained in a report 
issued last fall entitled ``Student and Exchange Visitor Program: DHS 
Needs to Assess Risks and Strengthen Oversight Functions.'' As part of 
this effort, SEVP has partnered with the Federal Aviation 
Administration (FAA) to ensure proper certification for flights 
schools. As a result of this collaboration, SEVP has issued new 
guidance clarifying that all flight schools must have final FAA Part 
141 certification and has completed identifying and notifying all 
flight schools that do not meet this standard that they will be 
withdrawn. Additionally, even prior to the GAO recommendation to focus 
more on risk, SEVP has also taken on several risk-management 
initiatives to identify and analyze programmatic risk over the past 2 
years. This includes the development of a school risk scorecard, a 
risk-informed compliance methodology, and an analysis of 
characteristics associated with high-risk schools.
          the counterterrorism and criminal exploitation unit
    The Counterterrorism and Criminal Exploitation Unit (CTCEU) is the 
first National program dedicated to the enforcement of non-immigrant 
visa violations. Each year, the CTCEU analyzes records of hundreds of 
thousands of potential status violators after preliminary analysis of 
data from SEVIS and the Overstay Analysis Unit (OAU) along with other 
information. After this analysis, CTCEU determines potential violations 
that warrant field investigations and/or establishes compliance or 
departure dates from the United States. Between 15,000 and 20,000 of 
these records are analyzed each month and, since the creation of the 
CTCEU in 2003, over 2 million such records have been analyzed using 
automated and manual review techniques.
    Today, through the CTCEU, we proactively develop cases for 
investigation in cooperation with SEVP and OAU. These programs enable 
special agents to access information about the millions of students, 
tourists, and temporary workers present in the United States at any 
given time, and to identify those who have overstayed or otherwise 
violated the terms and conditions of their admission. ICE special 
agents and analysts monitor the latest threat reports and proactively 
address emergent issues. This practice, which is designed to detect and 
identify individuals exhibiting specific risk factors based on 
intelligence reporting, including travel patterns, and in-depth 
criminal research and analysis, has contributed to DHS's 
counterterrorism mission by initiating or supporting high-priority 
National security initiatives based on specific intelligence.
    In order to ensure that the potential violators who pose the 
greatest threats to National security are given priority, ICE uses 
intelligence-based criteria, developed in close consultation with the 
intelligence and law enforcement communities. ICE assembles the 
Compliance Enforcement Advisory Panel (CEAP), which is comprised of 
subject matter experts from other law enforcement agencies and members 
of the intelligence community, who assist the CTCEU in keeping 
targeting methods in line with the most current threat information. The 
CEAP is convened on a tri-annual basis to discuss recent intelligence 
developments and update the CTCEU's targeting framework, in order to 
ensure that the non-immigrant overstays and status violators who pose 
the greatest threats to National security are targeted.
    To further strengthen the Nation's enforcement efforts concerning 
overstays and other status violations, DHS is currently assessing 
various approaches to sharpen the focus of programs that address 
vulnerabilities exploited by visa violators.
                         overstay analysis unit
    DHS is focused on enhancing its vetting initiatives across the full 
mission space of homeland security by providing real-time biometric 
functions to its front line operational components while continuing to 
set Government-leading biometric policies and standards. To this end, 
the OAU analyzes biographical entry and exit records stored in the 
National Protection and Programs Directorate's (NPPD) Office of 
Biometric Identity Management (OBIM) Arrival and Departure Information 
System (ADIS) to further support DHS's ability to identify 
international travelers who have remained in the United States beyond 
their authorized periods of admission. DHS's Automated Biometric 
Identification System (IDENT) and ADIS provide person-centric 
information by searching biometric and biographic data against 
Government databases to establish and confirm the identities of 
individuals that DHS has already encountered. OBIM supports DHS 
components by providing matching services against its databases and 
returning any linked information when a match is made as they vet those 
identities of individuals already encountered by DHS to identify known 
or suspected terrorists, National security threats, criminals, and 
those who have previously violated U.S. immigration laws.
    The OAU analyzes and validates two types of non-immigrant overstay 
records: Out-of-country overstays (OCO) and in-country overstays (ICO). 
OCO records pertain to visitors who stayed beyond their authorized 
admission period and subsequently departed the country. The OAU 
validates these violations based on their reported departure dates and 
creates biometric and biographic lookouts for these subjects. The 
lookouts are posted in two separate databases: The OBIM Automated 
Biometric Identification System (IDENT) Secondary Inspection Tool and 
CBP's TECS, respectively, to alert and notify DOS consular officers and 
CBP Officers of a subject's violation before he or she is granted a 
visa or re-entry to the United States. ICO records pertain to visitors 
with no evidence of departure or adjustment of status upon expiration 
of the terms of their admission. The OAU reviews and validates these 
ADIS system identified violations based upon ICE identified categories 
of interest.
    The OAU makes overstay and status violation referrals from three 
unique sources, which apply respectively to typical overstay violators, 
admitted watch list subjects, and Visa Waiver Program (VWP) violators. 
The first source, non-immigrant overstay leads, is used to generate 
field investigations by identifying foreign visitors who violate the 
terms of their admission by remaining in the United States past the 
date of their required departure. The second source, admitted watch 
list leads, monitors records for individuals who, at the time of 
admission to the United States, were the subject of a watch list record 
containing derogatory information that did not render the individual 
inadmissible to the United States, but did warrant monitoring their 
visit.
    The third source is CTCEU's Visa Waiver Enforcement Program (VWEP). 
Visa-free travel to the United States builds upon our close bilateral 
relationships and fosters commercial and personal ties among tourist 
and business travelers in the United States and abroad. The VWP, the 
primary source of non-immigrant visitors from countries other than 
Canada and Mexico, currently allows eligible nationals of 37 countries 
\1\ to travel to the United States without a visa and, if admitted, to 
remain in the country for a maximum of 90 days for tourist or business 
purposes. Prior to the implementation of the VWEP in 2008, there was no 
National program dedicated to addressing overstays within this 
population. Today, ICE regularly scrutinizes a refined list of 
individuals who have been identified as potential overstays who entered 
the United States under the VWP. One of the primary goals of this 
program is to identify those subjects who attempt to circumvent the 
U.S. immigration system by obtaining travel documents from VWP 
countries.
---------------------------------------------------------------------------
    \1\ The list of designated VWP countries can be found at 8 C.F.R. 
217.2, with the most recent designation being that of Taiwan in October 
2012. The Taiwan Relations Act of 1979, Public Law 96-8, Section 
4(b)(1), provides that ``[w]henever the laws of the United States refer 
or relate to foreign countries, nations, states, governments, or 
similar entities, such terms shall include and such laws shall apply 
with respect to Taiwan.'' 22 U.S.C. 3303(b)(1). Accordingly, all 
references to ``country'' or ``countries'' in the Visa Waiver Program 
authorizing legislation, Section 217 of the Immigration and Nationality 
Act, 8 U.S.C. 1187, are read to include Taiwan. This is consistent with 
the United States' one-China policy, under which the United States has 
maintained unofficial relations with Taiwan since 1979.
---------------------------------------------------------------------------
        creation of the office of biometric identity management
    The Consolidated and Further Continuing Appropriations Act, 2013 
(Public Law 113-6) enacted on March 26, 2013, transferred the core of 
United States Visitor and Immigrant Status Indicator Technology (US-
VISIT) Program staff to stand up OBIM under NPPD. Biometric identity 
management plays a critical role in supporting the DHS mission to 
secure the Nation, and this office will leverage its experience and 
expertise to provide biometric and associated biographic identity 
verification and analysis services to current and existing customers 
within DHS, and with our Federal, State, local, the intelligence 
community, and foreign partners.
    The act also aligns operational capabilities and realizes 
efficiencies by transferring US-VISIT's overstay analysis functions to 
ICE and moves entry/exit policy and operations to CBP. As the lead 
entity within DHS responsible for biometric identity management 
services, OBIM is focused on improving biometric and associated 
biographic data sharing through system interoperability with the U.S. 
Departments of Defense, Justice, and State towards a ``whole-of-
Government'' approach to identity services, and with trusted 
international partners to increase National and global security. By 
storing, matching, and analyzing biometric data linked to biographic 
information, OBIM provides homeland security decision makers with 
person-centric, actionable information on immigration violators, 
criminals, and known or suspected terrorists to enhance the Nation's 
safety and resiliency.
    Biometric information sharing between the Federal Bureau of 
Investigation's Criminal Justice Information Services and OBIM is the 
foundation of the use of IDENT/Integrated Automated Fingerprint 
Identification System (IAFIS) interoperability under ICE's Secure 
Communities. Through the use of IDENT/IAFIS interoperability under 
Secure Communities, aliens--including those who have overstayed or 
otherwise violated their immigration status--who are encountered by law 
enforcement after arrest for the commission of a crime may be 
identified as immigration violators when fingerprints are submitted to 
IAFIS. Once individuals are identified, ICE officials determine what 
enforcement action is appropriate and consistent with ICE's enforcement 
priorities. Currently, the use of this technology is deployed to 3,181 
jurisdictions in 50 States, five Territories, and the District of 
Columbia.
                               conclusion
    DHS has made significant progress in preventing terrorists from 
exploiting the visa process. Technological advances have created an 
opportunity for law enforcement to identify and mitigate National 
security and public safety threats on an efficient basis that otherwise 
would have required hundreds of employees. These new technologies 
enable us to address these threats in a more cost-effective and 
expeditious manner than ever before. We will continue to work closely 
with our international, Federal, State, local, and Tribal partners to 
combat visa fraud and protect the integrity of our visa security 
system.
    Thank you again for the opportunity to testify today and for your 
continued support of DHS and its law enforcement mission. We would be 
pleased to answer any questions. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mrs. Miller. I thank the gentleman for his comments.
    The Chairwoman now recognizes Mr. Dinkins for his 5 
minutes.

   STATEMENT OF JAMES DINKINS, EXECUTIVE ASSOCIATE DIRECTOR, 
   HOMELAND SECURITY INVESTIGATIONS, IMMIGRATION AND CUSTOMS 
       ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Dinkins. Good morning, Chairman Miller and Ranking 
Member Jackson Lee and distinguished Members of the 
subcommittee. Thank you for the opportunity to discuss our 
collective efforts to prevent the exploitation of non-immigrant 
visas by terrorists and other criminal organizations.
    We have had great collaboration with our partners at CBP 
and throughout DHS, as well as the State Department, to 
effectively combat visa fraud and mitigate National security 
and public safety threats. ICE and security investigations 
plays a critical role in the U.S. Government's layered approach 
to visa security. The process begins overseas with the 
submission of a non-immigrant visa application, extends 
throughout multiple layers of vetting and review during the 
application process, as well as after the visa is actually 
issued.
    Today, I would like to highlight three programs: The HSI 
Visa Security Program, our Student Exchange Visitors program, 
and the HSI Counterterrorism and Criminal Exploitation Unit. 
The HSI Visa Security Program represents DHS's front line in 
protecting the homeland by preventing foreign nationals who 
could pose a threat from actually obtaining a visa in the first 
place. To accomplish this, we rely upon highly-trained HSI 
special agents deployed to 19 high-risk visa-issuing posts 
overseas, combined with sophisticated technology developed in 
partnership with CBP at the National Targeting Center.
    As a result of today's increasingly sophisticated 
technology, we have the ability to vet more visa applicants 
against more data sets--has grown faster than ever before. 
Since fiscal year 2011 alone, HSI special agents screened over 
3 million visa applications through a manual review that 
identified over 10,000 individuals who could pose a potential 
threat to the United States. As a result, we recommended that 
they not be issued a visa. These are 10,000 individuals who 
could have posed a threat to our Nation, but were never 
afforded the opportunity to do so.
    With the State Department's transition from a paper visa 
application system to an on-line entrance process, we began 
collaborating with CBP to take advantage of this technological 
milestone. This year, we started piloting an automated vetting 
program. This program, known as Patriot, is revolutionizing the 
screening of electronically-submitted visa applications. 
Patriot automates an in-depth vetting of non-immigrant visa 
applications, a process that previously was done manually and 
took weeks to do. But with Patriot, the initial screening can 
be done electronically in a matter of seconds.
    With the help of Patriot, in the near future we will not 
only be able to screen visa applications filed at the 19 high-
risk posts, but virtually every HSI special non-immigrant visa 
application submitted from around the world within seconds of 
the person hitting the ``submit'' button and well in advance of 
them ever being considered by the State Department for a visa. 
The security and investigative benefits of this new program are 
immense, and will have a direct impact on our National 
security.
    I would also like to take the opportunity to discuss 
international students. While the vast majority of these 
students came to the United States in search of a quality 
education, there are those who choose a different path and seek 
to exploit the system for their nefarious purposes. As you 
know, HSI manages the Student Exchange Visitor Program as well 
as the Student Exchange Visitor Information System, known as 
SEVIS, which is a database that tracks HSI special non-
immigrant students, exchange visitors, and their dependents.
    Today, SEVIS contains the records related to more than 1 
million active students as well as information of approximately 
10,000 certified institutions for education. While overseeing 
this program, the men and women assigned to the Student 
Exchange Visitor program monitor both the institutions and the 
students for compliance as well as potential criminal activity, 
immigration fraud, and status violations. When such activity is 
detected, the information is referred to the HSI 
Counterterrorism and Criminal Exploitation Unit.
    This unit is a National program dedicated to investigating 
non-immigrant visa violations, and is responsible for 
identifying and targeting those HSI special non-immigrant visa 
holders who could pose a National security or public safety 
threat to our Nation. Each year, the unit analyzes hundreds of 
thousands of potential visa status violators. These 
intelligence-based screening criteria, developed in close 
consultation with our law enforcement partners as well as the 
intelligence community, ensure that the latest information is 
incorporated into our targeting process.
    When potential threats are identified, they refer the cases 
for investigation to HSI field special agents located 
throughout the United States. In all, the unit has the support 
of over 450 men and women dedicated to this important mission. 
Again, we have collectively made great strides in preventing 
terrorist and National security threats from exploiting the 
visa process. Technological advances have created an 
unprecedented opportunity for law enforcement to identify and 
mitigate National security and public safety threats in a more 
efficient and expeditious way.
    I appreciate the opportunity to be here today, and I look 
forward to answering any questions you may have.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman now recognizes Mr. Lyon for his 5 minutes of 
testimony.

STATEMENT OF SHONNIE LYON, ACTING DIRECTOR, OFFICE OF BIOMETRIC 
     IDENTITY MANAGEMENT, NATIONAL PROTECTION AND PROGRAMS 
       DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Lyon. Chairman Miller, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee, I am pleased to 
appear before you today with my colleagues to discuss the 
progress we continue to make to secure the Nation and address 
the challenge of visa overstays.
    Shortly after the Department was created, DHS established 
the United States Visitor and Immigrant Status Indicator 
Technology Program, know as US-VISIT, a critical component of 
the Department's strategy to prevent terrorist attacks on the 
United States and facilitate the movement of legitimate travel 
and trade. 
US-VISIT represented a major achievement in creating an 
integrated border screening system that enhanced our Nation's 
security.
    Through US-VISIT, DHS increased its ability to manage 
information collected about foreign nationals during the pre-
entry, entry, status management, and departure processes, 
allowing us to conduct better analysis of that information and 
thereby strengthen the integrity of our immigration system. In 
2007, DHS created NPPD and a realigned US-VISIT under that 
directorate. Expanding rapidly beyond its original mandate, US-
VISIT evolved in its mission space, providing advanced 
biometric and biographic identification services to front-line 
decision-makers so that they can accurately identify people and 
assess whether they pose a risk to the United States.
    The Consolidated and Further Continuing Appropriations Act 
of 2013 transferred the US-VISIT overstay mission to ICE, the 
US-VISIT entry-exit policy and operations mission to CBP, and 
the biometric identity functions of US-VISIT to the newly-
established Office of Biometric Identity Management. The 
aforementioned legislation designates the Office of Biometric 
Identity Management as the lead entity within DHS responsible 
for biometric identity services and retains responsibility for 
US-VISIT's identity systems, the Biographic Space Repository, 
known as ADIS, and the Biometric Space System, known as IDENT.
    Although most people are familiar with the Office of 
Biometric Identity Management's role in identifying visa 
applicants and travelers arriving at ports of entry, the 
behind-the-scenes work to identify visa overstays is less well-
known but equally important to the integrity of our immigration 
system. ADIS is used to biographically match entry information, 
changes in status and exit data, on foreign nationals to help 
determine possible overstays. ADIS processes arrival and 
departure information from CBP, changes in immigration status 
from USCIS, and changes in student status from ICE.
    Additionally, IDENT provides biometric identifiers for 
identity verification, along with biometric encounters related 
to apprehensions, visa applicants, and status updates that 
assist in resolving overstays. The IDENT and ADIS systems 
provide permit-centric information by searching biometric and 
biographic data to establish and confirm the identities of 
individuals that Homeland Security decision-makers encounter 
and to identity known or suspected terrorists, National 
security threats, criminals, and those who have previously 
violated U.S. immigration laws.
    The Office of Biometric Identity Management is focused on 
improving biometric and associated biographic data sharing 
through system interoperability with the Departments of 
Defense, Justice, and State towards a whole-of-Government 
approach to identity services. With trusted international 
partners to increase National and global security. By storing, 
matching, and analyzing biometric data linked to biographic 
information the Office of Biometric Identity Management 
provides Homeland Security decision-makers with person-centric 
actionable information on immigration violators, criminals, and 
known or suspected terrorists to enhance the Nation's security 
and resiliency.
    Thank you again for this opportunity to testify. I look 
forward to working with this committee as we continue to 
improve the biometric and biographic identification services 
our front-line decision-makers rely on to identify and deter 
human threats. I am pleased to address the committee's 
questions.
    Mrs. Miller. I thank the gentleman for his testimony.
    The Chairwoman now recognizes Ms. Gambler for her 5 minutes 
of testimony.

 STATEMENT OF REBECCA GAMBLER, DIRECTOR, HOMELAND SECURITY AND 
           JUSTICE, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Gambler. Good morning, Chairwoman Miller, Ranking 
Member Jackson Lee, and Members of the subcommittee. I 
appreciate the opportunity to testify at today's hearing to 
discuss GAO's work on overstay enforcement issues. My statement 
is based on GAO's April 2011 report and our on-going work for 
this subcommittee and others on DHS's programs and efforts to 
address overstays.
    Overstays are generally defined as foreign nationals who 
were legally admitted to the United States on a temporary 
basis, but then overstayed their authorized periods of 
admission. Most overstays are likely motivated by economic 
reasons to stay in the country. However, overstays can pose 
homeland security concerns. Today, I would like to focus my 
remarks on three key areas. First, I will discuss DHS's efforts 
to address a prior backlog of potential overstay records and 
our preliminary observations on the file of unmatched arrival 
records that DHS continues to maintain.
    Second, I will discuss DHS's steps to strengthen its data 
on potential overstays and report overstay estimates. Finally, 
I will discuss DHS's planning efforts for a biometric exit 
capability. First, as of January 2011, DHS had a backlog of 
potential overstay records that totaled 1.6 million. Since that 
time, DHS completed a review of those records against various 
National security and law enforcement databases. Based on that 
review, DHS closed those records for which information 
indicated that individuals had departed or changed status.
    DHS also identified any National security or public safety 
threats for possible investigation. DHS has continued to review 
all potential overstay records against National security and 
law enforcement databases. However, DHS continues to have more 
than 1 million unmatched arrival records. Some of these 
individuals are likely overstays, while others have departed or 
changed status without a record of them doing so.
    Our preliminary analysis of these 1 million records 
indicates that about 44 percent are for non-immigrants who 
traveled to the United States on a tourist visa, while about 43 
percent are for tourists who were admitted under the visa 
waiver program. In addition, our preliminary analysis indicates 
that the average amount of time elapsed since travelers with 
unmatched arrival records were expected to depart was about 2.7 
years. We are continuing to analyze these records for 
additional categories or trends.
    With regard to my second point, DHS has taken steps to 
enhance the connections among component databases to reduce the 
need for manual exchanges of data used to help identify 
overstays. While these changes have resulted in efficiencies, 
they have not addressed some of the underlying data quality 
issues we previously identified, such as incomplete data on 
land-based departures. DHS is implementing the Beyond the 
Border Initiative with Canada to exchange entry data on 
travelers crossing the Northern Border at land ports of entry.
    This initiative should help address the issue of missing 
departure data by providing a new source of information on 
travelers departing at land ports. This new data could also 
help DHS in determining and reporting overstay estimates, which 
DHS has announced plans to do by the end of this year. DHS has 
not reported overstay estimates since 1994 due to concerns 
about the reliability of its data. DHS initiatives for 
improving data on potential overstays are in the early stages 
of implementation. Thus, it is too soon to assess their full 
effect on helping to strengthen the reliability of DHS's 
overstay data for reporting purposes.
    Finally, DHS has not yet implemented a biometric exit 
capability, but has plans underway to assess options for such 
an exit capability at air and seaports. DHS has faced long-
standing challenges in determining how to implement an exit 
capability, such as identifying efficient mechanisms for 
collecting biometric data that do not disrupt passenger flow. 
DHS has plans to finalize goals and objectives for biometric 
air exit, and test various scenarios for collecting biometric 
data in the airport environment going forward.
    In closing, since we last reported on overstay issues in 
April 2011, DHS has made progress in its overstay enforcement 
effort. However, a number of DHS's changes have been recently 
implemented or are in the process of being implemented. 
Further, other efforts are planned for the future. Thus, it is 
not yet clear what all of DHS's--what impact all of DHS's 
efforts will have on improving its processes and data for 
identifying potential overstays.
    We are continuing to assess DHS's efforts, and plan to 
report our final results later this summer. This concludes my 
oral statement. I am pleased to answer any questions Members 
may have.
    [The prepared statement of Ms. Gambler follows:]
                 Prepared Statement of Rebecca Gambler
                              May 21, 2013
 immigration enforcement.--preliminary observations on dhs's overstay 
                          enforcement efforts
                              gao-13-602t
    Chairman Miller, Ranking Member Jackson Lee, and Members of the 
subcommittee: I am pleased to be here today to provide our preliminary 
observations on the actions that the Department of Homeland Security 
(DHS) has taken since April 2011 to address overstays.\1\ Each year, 
millions of visitors come to the United States legally on a temporary 
basis either with a visa or, in some cases, as visitors who were 
allowed to enter without a visa.\2\ Overstays are individuals who were 
admitted into the country legally on a temporary basis but then 
overstayed their authorized periods of admission.\3\ We have reported 
that most overstays are likely motivated by economic opportunities to 
stay in the United States beyond their authorized periods of 
admission.\4\ However, overstays could pose homeland security 
concerns--for example, 5 of the 19 September 11, 2001, hijackers were 
overstays.
---------------------------------------------------------------------------
    \1\ GAO, Overstay Enforcement: Additional Mechanisms for 
Collecting, Assessing, and Sharing Data Could Strengthen DHS's Efforts 
but Would Have Costs, GAO-11-411 (Washington, DC: Apr. 15, 2011).
    \2\ Visitors who are allowed to seek admission without a visa 
include citizens of Canada and the British Overseas Territory of 
Bermuda (and certain residents of other adjacent islands, such as the 
Bahamas) under certain circumstances, as well as Visa Waiver Program 
participants. This program allows nationals from certain countries to 
apply for admission to the United States as temporary visitors for 
business or pleasure without first obtaining a visa from a U.S. 
consulate abroad. Currently, there are 37 participants in the program.
    \3\ In this statement, we include out-of-status students--student 
visa holders who fail to meet certain requirements, such as enrolling 
in a qualified education program--in our definition of overstays. In 
general, foreign students remain in status and therefore eligible to 
stay in the United States under their student visas as long as they are 
enrolled in and attending a qualified education program.
    \4\ GAO, Visa Waiver Program: Limitations with Department of 
Homeland Security's Plan to Verify Departure of Foreign Nationals, GAO-
08-458T (Washington, DC: Feb. 28, 2008).
---------------------------------------------------------------------------
    DHS has primary responsibility for identifying and taking 
enforcement action to address overstays. Within DHS, U.S. Customs and 
Border Protection (CBP) is tasked with, among other duties, inspecting 
all people applying for entry to the United States to determine their 
admissibility to the country and screening Visa Waiver Program 
applicants to determine their eligibility to travel to the United 
States under the program. U.S. Immigration and Customs Enforcement 
(ICE) is the lead agency for enforcing immigration law in the interior 
of the United States and is primarily responsible for overstay 
enforcement. Within ICE, the Counterterrorism and Criminal Exploitation 
Unit (CTCEU) and the Overstay Analysis Unit are primarily responsible 
for overstay investigations. The Office of Biometric Identity 
Management (OBIM), within DHS's National Protection and Programs 
Directorate, supports the identification of overstays by managing the 
Arrival and Departure Information System (ADIS), which tracks and 
matches arrival and departure records for the purpose of identifying 
potential overstays, and the Automated Biometric Identification System 
(IDENT), which maintains biometric information, such as fingerprints, 
collected from non-immigrants upon their entry into the United 
States.\5\
---------------------------------------------------------------------------
    \5\ The Automated Biometric Identification System (IDENT) also 
contains fingerprints collected by the Department of State to establish 
and verify the identities of visa applicants. Both the Overstay 
Analysis Unit and OBIM were formerly part of the U.S. Visitor and 
Immigrant Status Indicator Technology Program (US-VISIT) within DHS's 
National Protection and Programs Directorate. DHS initiated US-VISIT in 
2002 to develop a comprehensive entry and exit system to collect 
biometric data from aliens traveling through U.S. ports of entry. In 
2004, US-VISIT initiated the first step of this program by collecting 
biometric data on aliens entering the United States. Pursuant to the 
fiscal year 2013 DHS appropriations act and its accompanying 
explanatory statement, DHS realigned US-VISIT's overstay analysis 
function into ICE and created OBIM effective March 27, 2013.
---------------------------------------------------------------------------
    In April 2011, we reported on DHS's actions to identify and take 
actions to address overstays and made recommendations to the Department 
to strengthen these efforts.\6\ DHS concurred with our recommendations 
and has taken or is taking steps to address them. Further, since April 
2011, DHS has reported taking additional actions to strengthen its 
processes for identifying and taking enforcement action against 
overstays.
---------------------------------------------------------------------------
    \6\ GAO-11-411.
---------------------------------------------------------------------------
    This testimony discusses our preliminary observations on DHS's 
efforts since April 2011 to: (1) Review potential overstay records for 
National security and public safety concerns, (2) improve data on 
potential overstays and report overstay rates, and (3) plan for a 
biometric exit system. My statement is based on preliminary analyses 
from our on-going review of overstay enforcement for this subcommittee 
and other Congressional requesters. We expect to issue a final report 
on this work in July 2013. To conduct this work, we analyzed DHS 
documents and data related to overstays and interviewed relevant DHS 
officials. Specifically, we analyzed DHS planning documents and reports 
on processes to review potential overstay records and collect 
additional data to improve overstay identification. We analyzed DHS's 
unmatched arrival records as of November 2012, the most recent date for 
which DHS had compiled the records at the time we began our review. We 
also reviewed statutory requirements and a May 2012 DHS report on the 
status of efforts to implement biometric exit capabilities at airports. 
To analyze the reliability of data on previously unreviewed potential 
overstay records and DHS's current set of unmatched arrival records, we 
reviewed documentation regarding the databases used to collect these 
data and interviewed DHS officials familiar with the data. We 
determined that the data were sufficiently reliable for our purposes. 
We conducted this work in accordance with generally accepted Government 
auditing standards. Those standards require that we plan and perform 
the audit to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We provided a draft of this statement to DHS for review and 
incorporated its comments where appropriate.
   dhs continually reviews potential overstay records, but unmatched 
                         arrival records remain
DHS Reviewed a Backlog of 1.6 Million Potential Overstay Records
    DHS has taken action to address a backlog of potential overstay 
records we previously identified in April 2011. Specifically, in April 
2011, we reported that, as of January 2011, ADIS contained a backlog of 
1.6 million potential overstay records, which included prior non-
priority overstay leads that had not been reviewed, non-priority leads 
that continued to accrue on a daily basis, and leads generated in error 
as a result of CBP system changes.\7\ DHS uses ADIS to match departure 
records to arrival records and subsequently close records for 
individuals with matching arrival and departure records because either: 
(1) The individual departed prior to the end of his or her authorized 
period of admission and is therefore not an overstay or (2) the 
individual departed after the end of his or her authorized period of 
admission and is therefore an out-of-country overstay. Unmatched 
arrival records--those records in ADIS that do not have corresponding 
departure records--remain open and indicate that those individuals are 
potential in-country overstays.\8\
---------------------------------------------------------------------------
    \7\ ICE prioritizes potential overstay leads for possible 
investigation. The specific criteria ICE uses to rank the priority 
level of overstay leads are determined triannually based on current 
threat information by the Compliance Enforcement Advisory Panel, an 
interagency panel of intelligence experts assembled by ICE for the 
purpose of determining these criteria. CBP system changes had resulted 
in multiple arrival and departure records being inadvertently created 
for a single individual.
    \8\ Enforcement actions for in-country and out-of-country overstays 
differ in that the focus of enforcement against in-country overstays is 
to remove them from the country if they pose a threat, whereas 
enforcement against out-of-country overstays is to prevent possible 
readmission to the United States.
---------------------------------------------------------------------------
    In the summer of 2011, DHS completed a review of the 1.6 million 
records against various National security and law enforcement databases 
to determine if the subjects of these records had already left the 
United States and to help identify if the subjects posed any potential 
National security or public safety threats.\9\ As a result, DHS closed 
approximately 863,000 records for individuals who had departed, were in 
status, or had adjusted status, and removed them from the backlog. 
Second, DHS reviewed the remaining 757,000 records against National 
security and law enforcement databases to identify potential National 
security or public safety threats. As part of this National security 
and public safety review, DHS also reviewed approximately 82,000 
additional records identified by CTCEU that were unresolved or had not 
yet undergone full review because they did not meet ICE's enforcement 
priorities (a total of approximately 839,000 combined records). As a 
result of these reviews, DHS reprioritized 1,901 of the 839,000 records 
because the subjects of the records could pose National security or 
public safety concerns and provided them to CTCEU for further review 
and consideration for enforcement action. Table 1 describes how CTCEU 
resolved these leads.
---------------------------------------------------------------------------
    \9\ To determine whether an unmatched arrival record is likely to 
be an in-country overstay, DHS agencies review multiple databases to 
determine if any information is available to document a departure or a 
change in immigration status. For example, the review process includes 
both automated searches, such as searching for immigration benefit 
application information through a U.S. Citizenship and Immigration 
Services database, and manual searches, such as determining whether the 
individual applied for refugee or asylum status.

    TABLE 1.--PRELIMINARY ANALYSIS OF RESULTS OF DHS'S 2011 REVIEW OF
                  BACKLOG OF POTENTIAL OVERSTAY RECORDS
------------------------------------------------------------------------
                                           Number of Records (Percentage
                 Outcome                             of Total)
------------------------------------------------------------------------
Individual had departed the United        711 records (37.4 percent).
 States.
Records forwarded to ICE's Enforcement    481 records (25.3 percent).
 and Removal Operations (ERO) as
 potential public safety threats*.
Individual was in status (e.g., the       302 records (15.9 percent).
 subject filed a timely application to
 change his or her status or extend his
 or her authorized period of admission
 in the United States).
Individual could not be located**.......  266 records (14.0 percent).
Individual was arrested.................  9 records (0.5 percent).
Other***................................  132 records (6.9 percent).
                                         -------------------------------
      Total.............................  1,901 records (100 percent).
------------------------------------------------------------------------
Source: ICE CTCEU.
* CTCEU refers information on non-priority potential overstays to ICE's
  ERO, which is responsible for identifying and apprehending aliens who
  are subject to removal from the country, detaining these individuals
  when necessary, and removing aliens subject to removal from the United
  States. ERO personnel may encounter overstays in the course of their
  work but they do not directly focus on overstay enforcement.
** An ICE contractor's system automatically queries these records
  against various databases on a weekly basis for new information
  relating to the location of the suspected overstay. If such
  information is identified, CTCEU will reopen the investigation.
*** Other includes the following outcomes: (1) ICE determined that
  information indicating a possible National security or public safety
  threat was false (73 leads, 3.8 percent); (2) the subject of the lead
  was in removal proceedings, previously arrested, or the subject of an
  investigation (43 leads, 2.3 percent); (3) the lead is open for
  continuous review (13 leads, 0.7 percent); and (4) the subject of the
  lead is the subject of an on-going investigation at an ICE Homeland
  Security Investigations field office (3 leads, 0.2 percent).

    Since completing this review of the backlog of potential overstay 
records in the summer of 2011, DHS has continued to review all 
potential overstay records through National security and law 
enforcement databases to identify potential threats, regardless of 
whether the subjects of the records meet ICE's priorities for 
enforcement action. This occurs on an on-going basis such that DHS may 
identify threats among individuals who were not previously identified 
as such when new information becomes available in various National 
security and law enforcement databases.
DHS Has More Than 1 Million Unmatched Arrival Records
    As of April 2013, DHS continues to maintain more than 1 million 
unmatched arrival records in ADIS (that is, arrival records for which 
ADIS does not have a record of departure or status change). Some of 
these individuals are overstays, while others have either departed or 
changed immigration status without an ADIS record of their departure or 
status change. For example, the individual may have departed via a land 
port of entry without providing a record of departure or the individual 
may have applied for immigration benefits using a different name. In 
addition, these records include those from the previous backlog of 
unmatched arrival records that were not prioritized for enforcement in 
the summer of 2011 and have not subsequently been matched against a 
departure or change of status record. As part of our on-going work, we 
are analyzing these data to identify various trends among these 
unmatched arrival records. For example, our preliminary analysis shows 
that 44 percent of the unmatched arrival records are non-immigrants 
traveling to the United States on a tourist visa, while 43 percent are 
also tourists but were admitted under the Visa Waiver Program. Figure 1 
presents our preliminary analysis of the breakdown of unmatched arrival 
records by admission class. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    We also analyzed the records to assess the amount of time that has 
elapsed since travelers were expected to depart the country, based on 
travelers' ``admit until'' date. CBP assigns certain nonimmigrants an 
``admit until'' date, by which they must leave the country to avoid 
overstaying.\10\ Figure 2 presents our preliminary analysis of the 
breakdown of the amount of time elapsed, as of November 2012, since the 
``admit until'' date. The average amount of time elapsed for all 
unmatched arrival records was 2.7 years.
---------------------------------------------------------------------------
    \10\ In general, foreign students remain in status and therefore 
eligible to remain in the United States as long as they are enrolled in 
and attending a qualified education program. Individuals traveling on 
student visas are generally not issued a specific date until which they 
are authorized to remain in the United States, but instead are admitted 
for what is referred to as duration of status. This means that they may 
remain in the country until they complete their approved program of 
study, provided they otherwise maintain their student status. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    As of April 2013, DHS has not analyzed its unmatched arrival 
records to identify whether there are any trends in these data that 
could inform the Department's overstay enforcement efforts. We will 
continue to evaluate these data as part of our on-going work.
dhs has actions completed and under way to improve data, but the effect 
                   of these changes is not yet known
DHS Has Begun Collecting Additional Data and Improved Sharing of Data 
        Among Its Databases to Help Identify Potential Overstays
    Since April 2011, DHS has taken various actions to improve its data 
on potential overstays. In April 2011, we reported that DHS's efforts 
to identify and report on overstays were hindered by unreliable data, 
and we identified various challenges to DHS's efforts to identify 
potential overstays, including the incomplete collection of departure 
data from non-immigrants at ports of entry, particularly land ports of 
entry, and the lack of mechanisms for assessing the quality of leads 
sent to ICE field offices for investigations.\11\ Since that time, DHS 
has taken action to strengthen its processes for reviewing records to 
identify potential overstays, including: (1) Streamlining connections 
among DHS databases used to identify potential overstays, and (2) 
collecting information from the Canadian government about those exiting 
the United States and entering Canada through northern land ports of 
entry.
---------------------------------------------------------------------------
    \11\ GAO-11-411.
---------------------------------------------------------------------------
    First, DHS has taken steps to enhance connections among its 
component agencies' databases used to identify potential overstays and 
reduce the need for manual exchanges of data. For example:
  <bullet> In August 2012, DHS enhanced data sharing between ADIS and 
        IDENT. This improved connection provides additional data to 
        ADIS to improve the matching process based on fingerprint 
        identification. For example, when an individual provides 
        fingerprints as part of an application for immigration benefits 
        from U.S. Citizenship and Immigration Services or a visa from 
        the State Department, or when apprehended by law enforcement, 
        IDENT now sends identity information, including a fingerprint 
        identification number, for that individual to ADIS. This 
        additional source of data is intended to help allow ADIS to 
        more effectively match the individual's entry record with a 
        change of status, thereby closing out more unmatched arrival 
        records.
  <bullet> Beginning in April 2013, ICE's Student and Exchange Visitor 
        Information System (SEVIS) began automatically sending data to 
        ADIS on a daily basis, allowing ADIS to review SEVIS records 
        against departure records and determine whether student visa 
        holders who have ended their course of study departed in 
        accordance with the terms of their stay.\12\ Prior to this 
        date, DHS manually transferred data from SEVIS to ADIS on a 
        weekly basis. According to DHS officials, these exchanges were 
        unreliable because they did not consistently include all SEVIS 
        data--particularly data on ``no show'' students who failed to 
        begin their approved course of study within 30 days of being 
        admitted into the United States.
---------------------------------------------------------------------------
    \12\ SEVIS contains biographical and immigration status information 
for nonimmigrant foreign students and exchange visitors.
---------------------------------------------------------------------------
  <bullet> Also in April 2013, DHS automated the exchange of potential 
        overstay records between ADIS and CBP's Automated Targeting 
        System (ATS), which is intended to allow DHS to more 
        efficiently: (1) Transfer data between the systems for the 
        purpose of identifying National security and public safety 
        concerns, and (2) use matching algorithms in ATS that differ 
        from those in ADIS to close additional records for individuals 
        who departed.
    These changes have resulted in efficiencies in reviewing records 
for determining possible overstay leads; however, they do not address 
some of the underlying data quality issues we previously identified, 
such as incomplete data on departures through land ports of entry. 
Furthermore, because many of these changes were implemented in April 
2013, it is too early to assess their effect on the quality of DHS's 
overstay data.
    Second, DHS is implementing the Beyond the Border initiative to 
collect additional data to strengthen the identification of potential 
overstays. In October 2012, DHS and the Canada Border Services Agency 
began exchanging entry data on travelers crossing the border at 
selected land ports of entry. Because an entry into Canada constitutes 
a departure from the United States, DHS will be able to use Canadian 
entry data as proxies for U.S. departure records. We have previously 
reported that DHS faces challenges in its ability to identify overstays 
because of unreliable collection of departure data at land ports of 
entry.\13\ This effort would help address that challenge by providing a 
new source of data on travelers departing the United States at land 
ports on the Northern Border. In the pilot phase, DHS exchanged data 
with the Canada Border Services Agency on third-country nationals at 
four of the five largest ports of entry on the Northern Border.\14\ 
These data covered entries from September 30, 2012, through January 15, 
2013. DHS plans to expand this effort to collect data from additional 
ports of entry and to share data on additional types of travelers. 
According to DHS officials, after June 30, 2013, DHS plans to exchange 
data for third-country nationals at all automated ports of entry along 
the Northern Border.\15\ At that time, DHS also plans to begin using 
these data for operational purposes (e.g., taking enforcement action 
against overstays, such as revoking visas or imposing bars on 
readmission to the country based on the length of time they remained in 
the country unlawfully).\16\ After June 30, 2014, DHS plans to exchange 
data on all travelers, including U.S. and Canadian citizens, at all 
automated ports of entry along the Northern Border.
---------------------------------------------------------------------------
    \13\ GAO-11-411.
    \14\ These ports were Pacific Highway (Blaine, Washington), Peace 
Arch (Blaine, Washington), Lewiston-Queenston Bridge (Lewiston, New 
York), and Rainbow Bridge (Niagara Falls, New York). For the purposes 
of this pilot, third-country nationals are individuals who are not 
citizens of Canada or citizens or nationals of the United States. The 
pilot phase included the exchange of biographic data on permanent 
residents of Canada and lawful permanent residents of the United 
States.
    \15\ For the purposes of the Beyond the Border initiative, an 
automated port of entry refers to a port of entry on the shared Canada-
U.S. land border with a primary processing capacity to capture traveler 
(land, ferry, and pedestrian) passage as an electronic record. This 
does not include large cruise vessels deemed to be sea crossings under 
the laws of Canada and the United States.
    \16\ Since these data include only individuals who have departed 
the United States, all of the overstays identified would be out-of-
country overstays. In general, non-immigrants, such as those traveling 
under temporary visas for business or pleasure, who were unlawfully 
present in the United States for a period of more than 180 days but 
less than 1 year and voluntarily departed the United States prior to 
the commencement of legal proceedings to remove them from the country, 
are inadmissible for 3 years. In addition, aliens who were unlawfully 
present in the United States for 1 year or more, and who again seek 
admission within 10 years of the date of their departure or removal 
from the United States, are inadmissible. For non-immigrants whose 
overstay violations fall below 180 days, their visas are void and the 
State Department has the discretion to determine whether to issue them 
new visas, and CBP has the discretion whether to readmit them into the 
country.
---------------------------------------------------------------------------
DHS Continues to Face Challenges in Reporting Reliable Overstay Rates, 
        and Recent Changes Have Not Yet Been Fully Implemented
    DHS has not reported overstay rates because of concerns about the 
reliability of its data on overstays. According to Federal law, DHS is 
to submit an annual report to Congress providing numerical estimates of 
the number of aliens from each country in each non-immigrant 
classification who overstayed an authorized period of admission that 
expired during the fiscal year prior to the year for which the report 
is made.\17\ Since 1994, DHS or its predecessors have not reported 
annual overstay rates regularly because of its concerns about the 
reliability of the Department's overstay data. In September 2008, we 
reported on limitations in overstay data, such as missing data for land 
departures, that affect the reliability of overstay rates.\18\ In April 
2011, we reported that DHS officials stated that the Department had not 
reported overstay rates because it had not had sufficient confidence in 
the quality of its overstay data. DHS officials stated at the time 
that, as a result, the Department could not reliably report overstay 
estimates in accordance with the statute.\19\ Although the new 
departure data DHS is collecting as part of the Beyond the Border 
initiative may allow DHS to close out more potential overstay records 
in the future, these data are limited to land departure at Northern 
Border ports of entry, and as the initiative has not yet been fully 
implemented, it is too early to assess its effect on helping strengthen 
the reliability of DHS's overstay data for reporting purposes. In 
February 2013, the Secretary of Homeland Security testified that DHS 
plans to report overstay rates by December 2013.\20\ As of April 2013, 
DHS was working to determine how it plans to calculate and report these 
overstay rates. As part of our on-going review, we are assessing how 
the changes DHS has made to its processes for matching records to 
identify potential overstays may affect the reliability of overstay 
data and DHS's ability to report reliable overstay rates.
---------------------------------------------------------------------------
    \17\ 8 U.S.C.  1376(b).
    \18\ GAO, Visa Waiver Program: Actions Are Needed to Improve 
Management of the Expansion Process, and to Assess and Mitigate Program 
Risks, GAO-08-967 (Washington, DC: Sept. 15, 2008).
    \19\ GAO-11-411.
    \20\ See statement of Janet Napolitano, Secretary, Department of 
Homeland Security, before the Committee on the Judiciary, United States 
Senate, Washington, DC: February 13, 2013.
---------------------------------------------------------------------------
 dhs faces challenges planning for a biometric exit system at air and 
                           sea ports of entry
    Developing a biometric exit capability has been a long-standing 
challenge for DHS. Beginning in 1996, Federal law has required the 
implementation of an integrated entry and exit data system for foreign 
nationals.\21\ The Intelligence Reform and Terrorism Prevention Act of 
2004 required the Secretary of Homeland Security to develop a plan to 
accelerate full implementation of an automated biometric entry and exit 
data system that matches available information provided by foreign 
nationals upon their arrival in and departure from the United 
States.\22\ Since 2004, we have issued a number of reports on DHS's 
efforts to implement a biometric entry and exit system. For example, in 
November 2009, we reported that DHS had not adopted an integrated 
approach to scheduling, executing, and tracking the work that needed to 
be accomplished to deliver a comprehensive exit solution. We concluded 
that without a master schedule that was integrated and derived in 
accordance with relevant guidance, DHS could not reliably commit to 
when and how it would deliver a comprehensive exit solution or 
adequately monitor and manage its progress toward this end.\23\ We have 
made recommendations to address these issues, including that DHS ensure 
that an integrated master schedule be developed and maintained.\24\ DHS 
has generally concurred with our recommendations and has reported 
taking action to address them. For example, in March 2012, DHS reported 
that the US-VISIT office was adopting procedures to comply with the 
nine scheduling practices we recommended in our November 2009 report 
and has conducted training on our scheduling methodology.
---------------------------------------------------------------------------
    \21\ Pub. L. No. 104-208, div. C,  110, 110 Stat. 3009-546, 3009-
558 to 59.
    \22\ 8 U.S.C.  1365b.
    \23\ GAO, Homeland Security: Key US-VISIT Components at Varying 
Stages of Completion, but Integrated and Reliable Schedule Needed, GAO-
10-13 (Washington, DC: Nov. 19, 2009).
    \24\ GAO-10-13; GAO, Homeland Security: U.S. Visitor and Immigrant 
Status Program's Long-standing Lack of Strategic Direction and 
Management Controls Needs to Be Addressed, GAO-07-1065 (Washington, DC: 
Aug. 31, 2007); and Homeland Security: First Phase of Visitor and 
Immigration Status Program Operating, but Improvements Needed, GAO-04-
586 (Washington, DC: May 11, 2004).
---------------------------------------------------------------------------
    DHS has not yet implemented a biometric exit capability, but has 
planning efforts under way to assess options for such a capability at 
airports and seaports. In 2009, DHS conducted pilots for biometric exit 
capabilities in airport scenarios, as called for in the Consolidated 
Security, Disaster Assistance, and Continuing Appropriations Act, 
2009.\25\ In August 2010, we reported on the results of our review of 
DHS's evaluation of these pilot programs. Specifically, we reported 
that there were limitations with the pilot programs--for example, the 
pilot programs did not operationally test about 30 percent of the air 
exit requirements identified in the evaluation plan for the pilot 
programs--which hindered DHS's ability to inform decision making for a 
long-term air exit solution and pointed to the need for additional 
sources of information on air exit's operational impacts.\26\ According 
to DHS officials, the Department's approach to planning for biometric 
air exit has been partly in response to our recommendation that DHS 
identify additional sources for the operational impacts of air exit not 
addressed in the pilot programs' evaluation and to incorporate these 
sources into its air exit decision making and planning. As of April 
2013, the Department's planning efforts are focused on developing a 
biometric exit system for airports, with the potential for a similar 
solution to be rolled out at seaports, according to DHS officials. 
However, in October 2010, DHS identified three primary reasons why it 
has been unable to determine how and when to implement a biometric air 
exit solution: (1) The methods of collecting biometric data could 
disrupt the flow of travelers through air terminals; (2) air carriers 
and airport authorities had not allowed DHS to examine mechanisms 
through which DHS could incorporate biometric data collection into 
passenger processing at the departure gate; and (3) challenges existed 
in capturing biometric data at the point of departure, including 
determining what personnel should be responsible for the capture of 
biometric information at airports.
---------------------------------------------------------------------------
    \25\ Pub. L. No. 110-329, 122 Stat. 3574, 3668-70 (2008).
    \26\ GAO, Homeland Security: US-VISIT Pilot Evaluations Offer 
Limited Understanding of Air Exit Options, GAO-10-860 (Washington, DC: 
Aug. 10, 2010).
---------------------------------------------------------------------------
    According to DHS officials, these challenges have affected the 
Department's planning efforts. In 2011, DHS directed its Science and 
Technology Directorate (S&T), in coordination with other DHS component 
agencies, to research ``long-term options'' for biometric exit.\27\ In 
May 2012, DHS reported internally on the results of S&T's analysis of 
previous air exit pilot programs and assessment of available 
technologies, and the report made recommendations to support the 
planning and development of a biometric air exit capability.\28\ In 
that report, DHS concluded that the building blocks to implement an 
effective biometric air exit system were available. However, DHS 
reported that significant questions remained regarding: (1) The 
effectiveness of current biographic air exit processes and the error 
rates in collecting or matching data, (2) methods of cost-effectively 
integrating biometrics into the air departure processes (e.g., matching 
arrival and departure records based on biometric information like 
fingerprints rather than based on biographic information, such as names 
and dates of birth), (3) the additional value biometric air exit would 
provide compared with the current biographic air exit process, and (4) 
the overall value and cost of a biometric air exit capability. The 
report included nine recommendations to help inform DHS's planning for 
biometric air exit, such as directing DHS to develop explicit goals and 
objectives for biometric air exit and an evaluation framework that 
would, among other things, assess the value of collecting biometric 
data in addition to biographic data and determine whether biometric air 
exit is economically justified.\29\
---------------------------------------------------------------------------
    \27\ In our previous reviews of DHS's efforts to pursue biometric 
exit capabilities, DHS's plans have approached development of a 
biometric exit system through a phased approach that involved 
conducting pilots to inform eventual planning for long-term solutions. 
Different pilots were created to inform solutions at air/seaports and 
land ports. See GAO-10-13.
    \28\ DHS, DHS Biometric Air Exit: Analysis, Recommendations, and 
Next Steps, draft final report (Washington, DC: May 2012).
    \29\ The report recommended that DHS take the following actions: 
(1) Develop explicit goals and objectives for biometric air exit, (2) 
leverage improvements in passenger facilitation and biometric 
technology to support a concept of operations, (3) use developmental 
scenario testing instead of pilot programs to validate a concept of 
operations, (4) establish collaborative relationships with airports and 
airlines, (5) use operational tests to validate performance and cost 
estimates, (6) develop an evaluation framework for biometric air exit, 
(7) employ a holistic approach to assess the costs and benefits of 
comprehensive biometric entry and exit processes, (8) determine whether 
biometric air exit is economically justified, and (9) incrementally 
deploy biometric air exit to airports where it is cost-effective to do 
so.
---------------------------------------------------------------------------
    DHS reported that, by May 2014, it planned to take steps to address 
the recommendations in its report; however, according to DHS Office of 
Policy and S&T officials, the Department has not yet completed actions 
in response to these recommendations, although DHS officials reported 
that DHS has plans to do so to help support development of a biometric 
air exit concept of operations. For example, DHS's report recommended 
that DHS develop explicit goals and objectives for biometric air exit 
and use scenario-based testing rather than operational pilot programs 
to inform the concept of operations for biometric air exit. As of April 
2013, DHS officials stated that they expect to finalize goals and 
objectives in the near future and are making plans for future scenario-
based testing. In addition, DHS's report stated that new traveler 
facilitation tools and technologies--for example, on-line check-in, 
self-service, and paperless technology--could support more cost-
effective ways to screen travelers, and that these improvements should 
be leveraged when developing plans for biometric air exit. However, DHS 
officials stated that there may be challenges to leveraging new 
technologies to the extent that U.S. airports and airlines rely on 
older, proprietary systems that may be difficult to update to 
incorporate new technologies. Furthermore, DHS officials stated they 
face challenges in coordinating with airlines and airports, which have 
expressed significant reluctance about biometric exit because of 
concerns over its effect on operations and potential costs. To address 
these concerns, DHS is conducting outreach and soliciting information 
from airlines and airports regarding their operations.
    DHS officials stated that the goal of its current efforts is to 
develop information about options for biometric exit and to report to 
Congress in time for the fiscal year 2016 budget cycle regarding: (1) 
The additional benefits that biometric exit provides beyond enhanced 
biographic exit, and (2) costs associated with biometric exit. As part 
of our on-going work, we are assessing DHS's progress in meeting its 
goals for addressing the recommendations in its biometric exit report 
by May 2014. We plan to report on the results of our analysis in July 
2013.
    Chairman Miller, Ranking Member Jackson Lee, and Members of the 
subcommittee, this completes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.

    Mrs. Miller. Thank you very much, Ms. Gambler. Thanks to 
all the witnesses. Excellent testimony by all of you.
    I will now recognize myself for my 5 minutes of 
questioning. I think I will start with Mr. Wagner, who talked 
about how DHS is collecting all this information--the number of 
visa overstays from each country--but couldn't share the 
information until the end of this year. I am just wondering 
whether or not DHS--why we can't have that information before 
the end of the year, understanding that you are going through 
your processes now.
    But as we have talked on this committee, we think we have 
sort of a moment in time, politically perhaps, where the 
Congress is willing to have a--and is having, currently engaged 
in a very intensive debate about comprehensive immigration 
reform. In fact, this subcommittee passed our border security 
bill out of our subcommittee just last week, then passed a 
border security bill out of full committee. We will see if it 
goes to the floor, hopefully.
    But a big concern that was raised by many Members here was 
this whole visa overstay and what we are gonna do with the visa 
issue? You know, that--in the 40 percentile of everybody who 
was here illegally is here on some sort of visa overstay. I am 
just wondering: How can the DHS help us better go through our 
debate by giving us all of the pertinent information as the 
debate is occurring? By the end of the year, we may not need 
that information quite as badly.
    Mr. Wagner. Thank you for the question. So CBP collects the 
arrival and the departure data. You know, we are validating the 
inbound data with our inspection process at the port of entry. 
We are working with the carriers to--a similar process we call 
document validation. Where, when they send us the advanced 
information pre-departure, we are looking into our system to 
make sure it is actually correct and complete data and sending 
them a confirmation message back.
    We're in the initial phases of starting to roll that out. 
Then on the departure, you know, for commercial air and sea we 
do get the APIS data. You know, we are relying on to airlines 
to transmit accurate and complete data to us. Of course, they 
are subject to fines if that is not the case. We take that 
information and then we provide it into the ADIS system, the 
Arrival and Departure Information System, so the other agencies 
can take and then start to match up the arrival and the 
departure records and look for exactly what those gaps are.
    There are a lot of reasons as to why it is just not so easy 
to match the departure with the arrival. People can enter and 
depart using different documents for very valid reasons. If 
they, you know--maintain they come in as a permanent resident, 
using the permanent resident card, and then they depart using a 
foreign passport because they are still a citizen of that 
country. It is a little challenging sometimes to match up those 
records.
    People come in on commercial air and will drive across the 
land border when they depart so it is tough for us to--not 
having the departure data from the land to match up those 
biographical records, as well. Or people come in, and then get 
into our immigrations benefits system and either extend their 
stay or apply for benefits or adjust their status. It is a 
matter of having our systems go through and pull all those 
different records, and then linking them up so we can close out 
those arrival records and not report as an overstay or someone 
that hasn't left.
    So we are making progress at the land border, at least on 
the Northern Border. We ran a successful pilot with the 
Canadian government, exchanging data on third-country 
nationals, meaning non-U.S. or non-Canadian citizens, whereas 
the entry into one country would serve as the exit and close 
out that arrival record from that other country. We exchanged, 
during a pilot phase, about 400,000 records. We were able to 
close out about 97.5 percent of those.
    Mrs. Miller. If I could, where was that pilot program?
    Mr. Wagner. That was along the U.S.-Canada land border.
    Mrs. Miller. Where?
    Mr. Wagner. I will have to look up the exact sites, but it 
was a handful of locations where we did that exchange.
    Mrs. Miller. So based on that pilot program, do you 
expect--what is your anticipated--I mean, are you looking to 
roll that out, then, along the entire border at all the POEs, 
or----
    Mr. Wagner. Yes. At the end of June we will expand that 
across just almost the entire Northern Border, where we will 
exchange data with--on third-country nationals between the 
United States and Canada. Then about a year later, so thinking 
June 2014, we will also look to start to include U.S. and 
Canadian citizen records, as well, into that. So the sort of 
strategic plan is it will be on the border if it is good.
    So it is a matter of us collecting and validating the 
accurate data, putting it into ADIS, and then allowing the 
systems to link it up to provide those types of overstay 
numbers that we all have confidence in. Trying to do that in a 
timely basis, but understanding that the challenge is before 
you, too.
    Mrs. Miller. Okay, thank you.
    Mr. Dinkins, I know you had previously testified that you 
were using about 3 percent of your resources to look at some of 
these visa overstays. I don't know if that statistic is still 
current, or what. I understand you have a lot of other things 
going on. But, you know, we--again, it is obviously a critical 
component, we think about 40 percent, of some of the situation 
that we have here. Then only 3 percent of your resources.
    I understand the financial constraints that we find 
ourselves in. I guess I would just ask you: Do you think that 
that is an adequate amount of your resources? Sort of in a 
perfect world, by your standards where you would have adequate 
resources, what would you really be--I mean, the Congress, we 
are really relying on all of you to tell us what you really 
need. Then we will have to decide within the confines of our 
existing fiscal constraints of where we want to prioritize our 
appropriations process.
    But it is a big part of what these hearings are about, as 
we try to get our arms around how we prioritize, as I say, 
within the existing revenues, of what we think we can do. But, 
obviously, this whole immigration reform is a huge debate right 
now. We want to make sure we try to get it right here. What is 
your thought about the amount of resources, if it is only 3 
percent? If that is correct?
    Mr. Dinkins. Yes, ma'am. That is about correct. This is the 
challenge. So right now, as you had mentioned, is we do 
prioritize our leads. So we get tens of thousands of potential 
overstays and--each week, and we vet them out. We look for 
anybody that is gonna pose that National security or public 
safety threat. Those are the ones that we specifically send out 
and target.
    The ones that do not pose any threat that we do not 
actually actively go out and pursue those individuals. If we 
did, and this is the thing--so it is not just like ICE 
resources. It is actually the entire immigration system 
resources. So the system is equipped to remove so many people 
from the country as it is. If we were to go out and get more 
than the system can put in, it just--you know, it wouldn't be 
an effective use of resources at all.
    Because there is only so many immigration courts, only so 
many judges and so forth. So I think--you know, going back to 
your question is, that would depend on what the immigration 
reform actually does. Because then, it would--you know, you 
would not necessarily end up with the same number of visa 
overstays, as you both had mentioned in your opening remarks. 
Because there would be other paths for people to come here and 
want to stay in the country.
    So I would presume that those numbers would drop down. So 
you would have to look at the bill to see. But right now, if we 
go out and we were to target every single one of those--and we 
do, do--we look for the public safety. They are continuously 
being monitored through secured communities. So if the visa 
overstay were to get arrested they would be prioritized, and 
then sought after.
    But for using more resources right now, it would end up 
just clogging the system up of--that would not be able to 
handle it. Then criminals would be the ones left behind not 
being dealt with.
    Mrs. Miller. The Chairwoman now recognizes the gentlelady 
from Texas for her questions.
    Ms. Jackson Lee. Thank you very much. Let me thank the 
witnesses very much. I have a number of questions, so you can 
help me by giving brief, or yes-or-no, answers. Before I even 
start, I wanted to just publicly acknowledge the horrific 
tragedy that occurred yesterday in Oklahoma and to offer our 
collective sympathy and concern for those who have lost their 
lives and those who are facing devastation now.
    Mrs. Miller. We all join with that, and certainly for the 
unbelievable devastation.
    Ms. Jackson Lee. Unbelievable.
    Mrs. Miller. It is difficult to even understand it as you 
are watching it, but a time when all Americans come together 
for our fellow Americans.
    Ms. Jackson Lee. Thank you, Chairwoman. As we have homeland 
security before it, I know that--hopefully that we will be 
having some briefing for the entire committee to make sure that 
we can be as helpful as we possibly can. So I thank the 
Chairwoman for allowing me to say that, and to the Members, as 
well.
    Let me start off by just a quick question as to whether 
reduced resources--I think DHS's facing sequestration and 
reduced resources are impacting your work. Mr. Wagner.
    Mr. Wagner. Yes, the reduced resources impact us. But we 
are also--have a very concerted effort to look at our 
operations and ensuring they are as critical as they can be. 
Changing things and procedures in places where we are getting 
the most efficient and secure----
    Ms. Jackson Lee. But you are responding to the lack of 
resources. Is that what you are saying? You are being creative 
and efficient, but you are responding to the lack of resources.
    Mr. Wagner. Yes.
    Ms. Jackson Lee. You are doing things differently.
    Mr. Dinkins.
    Mr. Dinkins. Absolutely, ma'am, it has definitely had a 
major impact on our operations.
    Ms. Jackson Lee. Let me go directly to the matter in 
Boston, the Boston Marathon. As you well know, the younger 
bomber had three of his friends arrested. One of the students, 
one of his friends, was a student from Kazakhstan and had had 
an expired I-20 certificate of eligibility. And came back into 
the country, and had a student visa but did not have the 
current I-20. However, the CBP Officer was unaware his I-20 was 
terminated and admitted him into the country in error.
    I guess we have established that he admitted him in error. 
I understand that there is a lack of interoperability between 
the tech and SEVIS, and that we have known about this 
vulnerability since 2007. First, I would like--I am just gonna 
go to Mr. Wagner and Mr. Dinkins. Be as brief as you can. Why 
do you think this happened? I mean, I articulated that the I-20 
was not in place, but my understanding that they carry that 
around and he did not have it, or it was expired.
    What are our CBP trained to do? Then if this was a known 
vulnerability since 2007, why hasn't it been fixed? Mr. Wagner 
and Mr. Dinkins.
    Mr. Dinkins. Yes, ma'am. In fact, we have known about this 
vulnerability. This is kind of what--I will give you in a 
nutshell real quick on how that happens. So he had actually 
left the country. So you get--your visa is good for up to 5 
years, but it requires you to have an I-20 to actually attend 
school. It is a two-piece type of verification process.
    Ms. Jackson Lee. Correct.
    Mr. Dinkins. So he had--was out of status, left school. But 
he actually left the country. So when we got the records 
indicating that he was out of status and left the country we 
did not send out a lead or put out any type of alert for him 
because he had left the country. The vulnerability there, as 
you had mentioned, is that it is a paper form. The I-20 is a 
paper form. So it is never canceled as a hard form.
    So actually, starting in April of this year we had actually 
made the progress to start piloting a fix for that. We ran it 
through April, to where even if those records were closed out 
we were using a batch input of anybody that had that----
    Ms. Jackson Lee. Do you have any other database 
inoperabilities that you are trying to deal with, and have you 
dealt with them?
    Mr. Dinkins. We are dealing with them--either 
electronically solutions or through an export and import, you 
know, mass.
    Ms. Jackson Lee. What--from 2007, really from 2001, what 
took so long? We are now 2013.
    Mr. Dinkins. It is--the technology, ma'am, is so old--is 
very old, and----
    Ms. Jackson Lee. So are we going away from the paper I-20, 
or we are still--and when will we hit the non-paper I-20?
    Mr. Dinkins. That is a good question. I am not for sure 
exactly when. But we have worked around that to make sure 
that--right now is, if you were to come back in and you had 
been out of status on an I-20, and now you will have to go to--
Customs and Border Protection will validate that when you come 
in that you have a good I-20, and----
    Ms. Jackson Lee. Okay, this is as of today, May 21, 2013? 
This is since the Boston tragedy.
    Mr. Dinkins. Yes, we had started doing that in April. 
Started running a pilot program, where we were doing the checks 
and balances of those, yes.
    Ms. Jackson Lee. Let me just--the GAO just stated that you 
have gone down from 1.6 to 1 million overstays, 44 percent are 
non-tourists. The others are under visa waiver. What are you 
doing to get down past the 1 million, and how fast can we get 
down past the 1 million?
    Mr. Dinkins. We had originally been referred to--and there 
are two things here. There is the original, the IG report, 
which indicated there was about 1.6 million. Which we whittled 
down to about 800,000.
    Ms. Jackson Lee. Okay, your number is 800,000?
    Mr. Dinkins. Yes. But there is--but that is in this one 
particular instance. So there is a--I guess, as Ms. Gambler had 
mentioned, about a million in the system that are unmatched. 
Those are coming through different ways. As we go under the 
Canadian system and doing that checks and balances, those could 
whittle out some of those, as well. But it is an incremental 
process, so each type of advance that we get can actually 
whittle those down.
    Ms. Jackson Lee. Let me just put something on the record, 
Madam Chairwoman, and I will yield back to Mr.--thank you--to 
Mr. Wagner of a problem of badging at the IAH Airport. I think 
I mentioned that in my testimony. So do you have a quick answer 
of your fixing it, or----
    Mr. Wagner. Yes, we would be happy to discuss afterwards 
some of the details. We did review it.
    Ms. Jackson Lee. I will put my complaint on the record, 
which is that my legitimate workers are being prevented from 
getting to their job because of the badging problem.
    With that, Madam Chairwoman, I will yield back. I thank you 
for your courtesy.
    Mrs. Miller. I thank the gentlelady. I would ask unanimous 
consent, as well, if the gentleman from Florida, Mr. Bilirakis 
would--a former Member of the committee--be allowed to sit in 
our hearing and participate. Without objection, so ordered.
    The Chairwoman now recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman, and thanks for 
having this hearing. I think it is timely, with the immigration 
debate that is raging on the Hill and with the Senate taking up 
the immigration reform legislation. We do have an illegal 
immigration problem in this country.
    I will note for the record that 40 to--roughly 40 to 50 
percent, almost half, of all the illegal aliens in this country 
came here legally. They came through an airport or a port 
through a visa system. They were students, they were tourists, 
and they were here on a work visa. Decided they loved America 
as much as I do, and decided to stay. We know who these people 
are.
    They have had an interview at a consulate, they filled out 
an application. We probably have a last known address, we 
probably know where they were going to school, where they were 
working or the hotel they were staying at. So that is low-
hanging fruit as far as I am concerned with regard to 
immigration enforcement. Because these aren't chasing 
footprints in the desert. These are people that we know about.
    It is a little different when you talk about an illegal 
alien that just walked across our Southern Border or across our 
Northern Border, or got off a merchant ship and decided to 
enter this country illegally. These are folks that willfully 
came to this country, and we gave them permission. By issuing 
that visa, America is saying come on in to our country, 
experience what we have in--here in America. Work for an 
employer, go to school, or enjoy our country as a tourist.
    I was doing some research about student visas. I understand 
that they have got to go through an application process and 
they have to have an interview at the consulate. In fact, 
everyone that comes for a visa has to have an interview unless 
you are of certain ages. If you are 13 or younger you generally 
don't require an interview. If you are 80 and older an 
interview is generally not required. But if you are 14 to 79 
you went to a consulate or you went to an embassy in your home 
country, and you sat down in front of a customs enforcement 
officer or a CBP Officer or somebody from the Department of 
State and y'all had an interview.
    It says here, on student visas, we gave a thumbprint. You 
are gonna give--an ink or non-ink digital fingerprint scan will 
be taken as part of your application process. I think that is 
vital, as we talk about an exit system, that we do have that 
information. But as we look back at what happened in Boston, 
with the bombing there, according to reports one of the 
individuals arrested in connection with the aftermath of the 
Boston Marathon bombing was able to return to the United States 
despite the fact that he lacked proper documentation associated 
with his student visa.
    So I have got to ask myself, when he came into this country 
and he walked in front of that customs enforcement officer at 
that airport--which I have done at Dulles and Atlanta and other 
places--that little interview, when they ask you that question 
that, as Americans coming into our own country, I am 
intimidated, I am nervous. This guy was coming into our country 
without the proper documentation. Yet we stamped his documents 
and let him come into the country.
    That alarms me as a United States citizen. According to the 
reports, the lapse occurred in part because the Customs or 
Border Protection Officers at primary inspection currently do 
not have access to ICE's Student Exchange Visitor Information 
System, SEVIS, database to verify whether a student has an 
active I-20 and is eligible to be admitted to the United 
States. So we are granting the visa over, but we are not 
telling the proper authorities that are doing that interview in 
that line at Dulles International Airport or at Boston airport 
or in Atlanta, Georgia.
    They are not having access to the information they need to 
determine the eligibility of that guy's status coming into this 
country. Wow. We have had numerous hearings in this committee 
in the last Congress, and already one in this Congress, where 
we have talked about this failure to communicate between 
systems, across agency lines. We had the 9/11 Commission 
report, talked about security information being stovepiped.
    But we are talking about folks that we allow to come in 
this country, visas that we issue, and we are not allowing the 
guys that are the front line defense of our country that are 
standing in that booth or sitting in that booth, interviewing 
those folks coming into this country, they don't have access to 
the information that they need to determine the status of that 
individual coming in. It is no wonder we don't have more people 
like the gentleman that came in from Boston, that went to 
Russia and came back.
    It is no wonder we don't have more of that if y'all aren't 
allowing those computer systems to talk to one another, if the 
information isn't being shared with the vital front line 
components in this Nation. So I am alarmed about that. America 
is alarmed about that, and they are looking to us as Members of 
Congress to ask the hard questions about why. Why aren't those 
computer systems talking? Why doesn't his personnel that are 
standing in those booths have the information that they need to 
determine whether that person can or cannot come into this 
country?
    Those are the questions that we need to ask. Those are the 
questions America is asking. When we look that we have spent 
hundreds of billions of dollars, established DHS and 225,000 
employees. We have spent a lot of money in this country to try 
to make this country safe, and these seem like simple 
components that have been either overlooked or neglected. I 
think about the first suspect or person of interest, the Saudi 
national that was in the hospital.
    He was supposed to be going to college in Ohio. A text file 
was created on that individual because they couldn't determine 
that he was ever enrolled in college in Ohio. But yet he had 
sent his paperwork in to go to a college in Massachusetts and 
so he was original suspect because there was a failure of 
communication there. Guys, we have got to get it right. We have 
got to address this, and we have got to address it fairly 
rapidly to get it right to secure this country.
    That is what this committee is charged with, that is what 
you guys are charged with. Madam Chairwoman, I hope we have 
another round of questions. Because on my rant I didn't get to 
my question. So I yield back.
    Mrs. Miller. We are gonna try to have another round of 
questions, depending on our time. I thank the gentleman.
    The Chairwoman now recognizes the gentleman from Texas, Mr. 
O'Rourke.
    Mr. O'Rourke. Thank you, Madam Chairwoman. Thank you for 
holding this hearing and assembling this panel. I want to 
actually follow up on the comments made by the gentleman from 
South Carolina about the need to share information, and the 
interoperability of systems between CBP and ICE. To illustrate 
the problem a different way, in El Paso, the community I 
represent, the University of Texas at El Paso treats its 
students from Ciudad Juarez as though they are in-State tuition 
students.
    So it is as though they are in El Paso living in our 
community because, in many ways, we are one community. 
Thousands of those University of Texas at El Paso students 
start their day, every day, in Juarez and cross our ports of 
entry to come into El Paso to attend classes. Following the 
Boston bombing, these students were sent into a primary and 
secondary inspection process that, at times, lasted up to 8 
hours for these students to cross.
    I want to say that both CBP and ICE were very responsive to 
our office when we brought this issue to their attention. But 
our understanding was, there was a lack of communication 
between the computer systems at ICE and CBP. So with that being 
the case, and the facts that Mr. Duncan just laid out, before 
we invest in new systems, new biometric systems, how do we get 
the systems we already have working the way they should be?
    I will address that to Mr. Wagner and Mr. Dinkins.
    Mr. Dinkins. Yes. The situation you mentioned was--while we 
were piloting the program to validate this process in the 
interim we started doing--you know, CBP started doing a hard 
inspection, basically, of the I-20s going back into secondary, 
and then querying the system to make sure that it was valid, 
and SEVIS and directly into the system. Since that time, 
though, however the only people that would have to go back to 
secondary are people who had been--an I-20 canceled.
    So they are attending school and had it canceled for some 
reason. They were still on their original visa. Then now they 
are coming back in, when they actually should have already left 
and not returning. So those are the only ones that are gonna be 
returning. Now, they could be coming back in because they have 
a new I-20. But our systems are actually now communicating. So 
that is what we had started in April.
    So now we have--you know, we are doing batch runs for 
exporting that data and importing it in. A record will only be 
created for the people that we actually want to talk to, rather 
than having to look at the whole pool and narrowing it down, 
actually, on the front lines.
    Mr. O'Rourke. It seems like there was some fundamental 
breakdown in the week following Boston. I can't tell you how 
many phone calls our office received. And a breakdown that your 
Department has fixed subsequently. So it does seem like there 
are still some problems within the system.
    Related to that, I want to ask Mr. Lyon, my understanding 
is that we began in earnest on this biometric entry-exit system 
in 1996. Since then, how much have we spent on this system?
    Mr. Lyon. We actually really started in--even though the 
first law was passed for an integrated entry-exit system in 
1996. It wasn't until 2003 that we actually built the biometric 
entry system. Then we--that was at the air and seaports. Then 
we rolled it out to the land border ports on the Northern 
Border and the Southern Border in 2004-2005.
    Since that date, when you talk about the--to maintain and 
operate both the IDENT biometric system and ADIS, Arrival and 
Departure Information System, I believe since 2003 the number 
through fiscal year 2012 is about $3 billion. But I can get you 
that exact number. But you have to remember, IDENT supports 
more than just entry.
    It supports ICE Investigation, it supports the Department 
of State overseas. It supports CIS, when someone applies for 
legal permanent residence or to become a U.S. citizen we house 
those prints in our system. The IDENT system houses about 154 
million unique individuals in that system of foreign nationals.
    Mr. O'Rourke. Mr. Lyon, how much more do we need to spend 
to fully complete this system?
    Mr. Lyon. There was an estimate. DHS did a proposed rule 
back in 2008 to implement a biometric exit system. The cost 
ranged, over a 10-year period, anywhere from $3 billion to $9 
billion depending on what you wanted to do. But right now, what 
the Department is doing, CBP--I don't want to speak for them, 
but they are working very closely with S&T looking at a 
biometric exit solution.
    They are putting a lab together, and actually are going to 
be looking to build a cost-effective biometric system. I think 
the challenge that we have is--and having worked in this field 
for over 12 years now, looking at entry and exit, exit is a 
huge challenge because of the infrastructure problem. For 
arriving in the United States, obviously we have done--over the 
years, we have, you know, great facilities to actually be able 
to inspect everyone.
    But we have an open society, as we all know. So the issue 
is, we have never built any exit infrastructure, whether that 
is at an airport, whether that is at a seaport or a land 
border. So that is why that cost is so expensive.
    Mr. O'Rourke. My time is up. If there is a second round of 
questions I would like to know, from Ms. Gambler, if there is a 
way to do a cost-benefit assessment on programs like these.
    So I yield back. Thank you.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman now recognizes the gentleman from 
Pennsylvania, Mr. Barletta.
    Mr. Barletta. Thank you, Madam Chairwoman, and I want to 
personally thank you for this hearing today. These overstays--
has been my main focus since I got on this committee. I believe 
it is very important. Because there is so much focus on the 
Southern Border, when we talk about border security. I believe 
that these overstays are a much, much more serious National 
threat.
    Furthermore, I don't even believe we should be talking 
about any type of immigration reform for a claim--or make a 
claim that our borders are secure, 90 percent secure or 100 
percent secure unless we fix this visa overstay problem. Until 
we understand that this is just as serious as someone crossing 
one of our borders and include that in whether or not our 
borders are secure, then we are creating an illusion to the 
American people that we can now move forward with immigration 
reform until that is done.
    As I said many times, any State that has an international 
airport, being that 40 percent of the people enter the country 
legally, with a visa, any State that has an international 
airport is a border State. One of the 9/11 hijackers, as you on 
the panel know, entered the country on a student visa. Two 
other of the 9/11 hijackers had their student visas approved 
years after they were dead. Student visas are one of the most 
preferred methods for terrorists to gain entry into our 
country.
    Now, within the United States ICE's Student and Exchange 
visa--Visitor Program, SEVP, certifies universities that wish 
to admit foreign students; once a university has been enrolled 
in SEVP they can offer a student admission. Now, Congress has 
required that SEVP schools be recertified every 2 years. But as 
of last year, ICE has recertified only 19 percent of more than 
10,000 schools that participate in this program.
    Mr. Dinkins, can you describe the process for recertifying 
universities in an SEVP program? Given the power that these 
universities have to bring foreign students to our country, why 
has ICE been so lax in recertifying universities? Also, why 
does ICE not conduct background checks on school officials who 
participate in this program?
    Mr. Dinkins. Sir, great question. Historically, we did not 
have the resources, or a unit set up, to go and validate each 
university every 2 years. Now we do do that. We have built a 
unit. I don't have the exact month, but I believe it is by the 
end of the year, we will have completed the first go-round of 
reviews of the--each university or institution that has foreign 
students.
    Mr. Barletta. If I could just jump in there a second.
    Mr. Dinkins. Yes, sir.
    Mr. Barletta. Being the fact that is the most preferred way 
for terrorists to enter the country, wouldn't it make sense to 
reallocate funds within the Department?
    Mr. Dinkins. Yes, and now it is not a funds issue anymore, 
sir. We have built this program, and we have that capability to 
do it. We are on-going through it. Now, what we are finding, 
too, is that before, you might have 10,000 universities that 
would be willing to do it because it was a paper exercise. But 
now that they know that they have to go through this process 
and be reviewed, some of those are dropping out.
    So we have had a few hundred actually, I believe, that is 
dropped out of the process. But it is now a rigorous process, 
that they go in. We need to make sure that they are allowing--
that they are capable of handling the number of students that 
they are actually allowing and enrolling. Because you can have 
fraud, institutional fraud, as well as just the threat of the 
individual students themselves.
    Mr. Barletta. According to your testimony, DHS responded to 
a recent GAO report by partnering with the FAA to ensure proper 
certification for flight schools. Why is this happening 11 
years after 9/11, when we know several of the hijackers 
exploited the flight school loophole?
    Mr. Dinkins. Historically, sir, I can't answer--have not 
been here, knowing that for sure. I am sorry, I can't answer 
that. However, now we do--we built that in there, and we are 
using our system to actually compliment FAA, who didn't--rather 
than them try to build an entire SEVIS type of structure, as 
well, for the flight schools.
    Mr. Barletta. I also understand that beginning last month, 
DHS began updating its arrival-departure database with SEVIS on 
a daily basis. Why did it take the Boston tragedy to make this 
happen?
    Mr. Dinkins. Sir, we actually had known, and been working 
for, that technological solution for quite some time. It was 
prior to the Boston situation that we actually had done that. 
The individual that Boston highlighted actually was in January. 
We rolled this out in April. But we had been working on that 
technological solution for some time.
    Mr. Barletta. Thank you, Mr. Dinkins. Hopefully, we will 
have a second round.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman now recognizes the gentlelady from Hawaii, 
Ms. Gabbard.
    Ms. Gabbard. Thank you, Madam Chairwoman. I have some 
questions for Mr. Dinkins with regard to the estimated 40 
percent of people who are here unlawfully who came on valid 
visas, that many of my colleagues have already touched on. You 
spoke briefly about prioritizing resources based on security 
threat. Would like you to speak to how you--basic--what is the 
criteria, and what is your process for identifying these 
security threats?
    Mr. Dinkins. So there is two-fold. So overall, in general, 
we have the prioritization for all immigration violations. But 
specifically related to the students program and the visa 
overstays, we work with the intelligence community and law 
enforcement. We come up with a criteria, and I don't want to 
talk about the criteria in open forum. Because then next thing 
you know, somebody is adopting the new criteria and trying to 
work around our system.
    But we vet that information against virtually every type of 
intelligence community or law enforcement database; from 
criminal, to intelligence, to National survey, public safety, 
or border security threats. Based on that, we screen out the 
number of hits. Then we actively go after those. As well as--so 
that leaves the population that would actually not be known to 
us, pose any threat to the country, specific threat to the 
country. However, it is a continuous process.
    So that gets re-done all the time. I think it is daily that 
those--anybody with a visa gets re-ran through the system each 
day. So if that were to change, and now we have new 
intelligence or new information, they would be captured in that 
and prioritized out.
    Ms. Gabbard. How effective is the interoperability in 
sharing that information, the analysis, between not only 
Federal agencies, but also the State and local law enforcement?
    Mr. Dinkins. Very good. Because if you become out of 
status, and you are a priority, we put you on a list of--
basically a hot list, right? It is getting ran every day. So we 
may not know where you are at today, and maybe not be able to 
find you, but if you do any type of--register a new car or get 
a phone account in your name, we are gonna get an alert and we 
are gonna to be able to now know where you are at.
    Also, it gets put into the databases for NCIC for--State 
and locals would actually know that this person is subject out 
of status.
    Ms. Gabbard. What about with regards to no-fly lists? You 
talk about prioritizing those who have overstayed. You know, we 
have heard reports of how many--the large number of people who 
are on no-fly lists and how many of those people actually 
present a security threat, or those who should be on the list 
who have a security threat and are not, and how many--whether 
they are U.S. citizens or otherwise, people who are on the list 
who don't pose a security threat, and basically taking up 
valuable--limited resources that should be addressed to those 
who actually pose a threat.
    Mr. Dinkins. Yes. I mean, you are bringing up a good point. 
Many times, we will have intelligence on a name-specific--you 
know, Jim Dinkins could be attending a camp, for example, in 
Afghanistan for a terrorism camp, but that is all we have. So 
when that person comes in--now I am traveling and my name is a 
match--you know, it can be distracting. Now, we go through and 
try to add that information in, and we--and the nominating 
agency is asked, whoever nominates, that they be on a no-fly 
list specifically in your situation that your brought up--would 
be asked to come back with more information on that.
    Also, Jim Dinkins--you know, the head of HSI, would 
eventually--may be stopped once or twice, but eventually be 
able to work out of that system once they were able to come up 
and validate that information. But it is a continuous process. 
So as we validate, for example, on our side, the F-1 students 
or the visas that come in from the State Department for visa 
applications, if we come up with data on that, or CBP or ICE or 
whoever has that data, we can--that we think somebody should be 
on the no-fly list, then we can actually nominate that person 
for the no-fly list.
    Ms. Gabbard. Thank you. Just one follow-up for Mr. Lyon 
with regards to the biometric exit program. Ms. Gambler 
mentioned in her testimony the necessity for a master schedule. 
It is mind-boggling that we have put so much money towards this 
effort already, and still don't appear to be making very much 
progress, and still a long road ahead of us. What is the status 
of creating a master schedule and a time line for actually 
implementing a biometric exit program that will allow us to 
track how many people actually are overstaying their visas?
    Mr. Lyon. Thank you for that question. The Department, last 
May, submitted a report to Congress about the status of 
biometric exit. In that report, it lays out the schedule that 
we have. A lot of the steps that we have taken over the last 18 
months are in that plan. So the idea of making the--some of our 
systems more interoperable as we enhance the biographic exit 
system we have, those are steps that we are actively working 
right now.
    I believe we are on--there were three phases set up for the 
enhanced biographic exit. We have finished phase two and we are 
actually working on phase three. On the biometric exit piece, 
one of the things that is in the report, it talks about, 
really, a cost-benefit analysis and the idea of having a system 
that would be cost-effective. That is one thing that our 
science and technology director, working with CBP, is actually 
looking at. I believe, right now, if I remember the schedule 
correctly, that they are planning to actually do some lab 
tests.
    This year, they are setting up the lab, and then they are 
going to be starting some further tests in the future. But I 
believe fiscal year 2016 was in the schedule for actually doing 
operational tests. I will refer to Mr. Wagner, if he has any 
more information on that one.
    Mr. Wagner. Thank you. So we have been working closely with 
the science and technology branch in DHS. So we are out 
currently, right now actually, doing some of the baseline 
logistics and measurements of the outbound process at the major 
airports to look at, you know, what is the process, what are 
the logistics, what is the infrastructure, how does the 
passenger flow work, and getting a lot of those baseline 
measurements.
    Now, we are also looking at setting up a test lab with the 
science and technology branch. I believe we are scheduled for 
early next calendar year to have that operational, to start to 
test the current biometric capabilities against what some of 
those sort-of real-life situations are and what those real 
logistics are. Looking at the impacts to introducing, you know, 
the current biometric capability into the existing logistics of 
how travelers exit the United States either at--land or air.
    Because, again, like Mr. Lyon had mentioned earlier, you 
know, a lot of our transportation infrastructure was not set up 
to handle any outbound or exit-type processing. You know, it is 
like at airports--you know, airlines you don't come to one area 
just to depart the United States like they do on the inbound. 
They leave from any type of multiple gates or terminals.
    Ms. Gabbard. Thank you.
    Mr. Wagner. So it just adds to the complexity of it.
    Ms. Gabbard. Thank you. Thank you very much.
    Mrs. Miller. The Chairwoman now recognizes the gentleman 
from Utah, Mr. Stewart, for his questions.
    Mr. Stewart. Thank you, Madam Chairwoman. Like all of us, 
we thank the panel for your service, for your expertise, for 
being with us today. The other Members of the committee, Madam 
Chairwoman, we all believe that this is an important issue. It 
has some urgency to many of us.
    As has been said here over and over today, 40 percent is 
not an insignificant figure. We are not talking about a small 
problem. We are really talking about a significant problem. The 
importance in this committee and being able to help to address 
that, I appreciate. I think I share some of the frustrations 
that have been expressed today with the pace of our progress in 
that. Again, to the witnesses, thank you for your expertise.
    But I think we all agree that we can do better, and that we 
probably have to do better, on this. I would like to address 
quickly, if I could, some of the lim-facs, some of the limiting 
factors, that you are encountering. One of is, I suppose, with 
airlines. Airlines would like passengers to show up, very 
quickly move through security, get their tickets, be on board 
the aircraft without a lot of delay. It seems that that is 
where you are getting some pushback is the airlines helping to 
implement your being a partner with you.
    Is that true? If that is true, can you shed some light on 
maybe how we could incentivize them or prod them along, or how 
we could help with that process? Mr. Wagner, would you mind?
    Mr. Wagner. Sure, thank you. Thank you for the question. 
Yes, the airlines have been pretty vocal in what they see, 
really, as a Government responsibility being placed on them and 
their business to collect biometrics for exiting travelers. 
They do, however, provide the biographic information a number 
of years now on all inbounds and all outbound passengers. It is 
looking at the logistics and the impact to how airports are 
designed and how the airline business practices operate, and 
not being a big roadblock in travelers' navigating through the 
different components of leaving the United States.
    As the airlines, you know, look to move away from checking 
in at an airline counter or checking in at a kiosk, and 
removing some of the stops of that currently take place at an 
airport to board a flight, they look to automate that. I think 
they are very concerned about us injecting a new process into 
that.
    Mr. Stewart. Are we making progress towards that, though? 
Are are we breaking down some of their concerns and actually 
moving forward in implementing some of the--you know, these 
things that you would like to do, from your end?
    Mr. Wagner. Well, we continue to work with them. We are 
enhancing the biographical collection of the data. We are 
starting to validate when they transmit the manifest data to us 
in advance. We are validating that that document is on record 
and that it is accurate. They have been very good partners in 
working with us on that. But also, it is where do we put the 
technology collection in that process to ensure the person 
really left, and got on a plane and boarded and left?
    You know, if we put it at a place in the airport where 
someone can go check out, and then turn around and walk right 
out of the airport, it kind of defeated the purpose of what we 
set out to do. So it is do you put it on the jetway, do you put 
it on the plane? At what point in the process are we gonna 
capture people that actually are leaving in a place where we 
are not really gonna shut down air travel for people leaving.
    Mr. Stewart. Yes. It would seem to me that putting it on 
the jetways, is probably your only viable option, wouldn't you 
agree?
    Mr. Wagner. It is looking like that. That is why we are 
working with our science and technology branch about building a 
jetway and looking at the capacities and the infrastructure. 
What would the best biometric be to support that in, I will 
say, the less-intrusive manner to not slow down or shut down 
air travel.
    Mr. Stewart. Okay. Let me address, if I could, one more 
concern that I have as far as the limiting factor. That was 
perhaps some of the training or the vetting with the school 
officials who are responsible for updating these student visas, 
or the SEVPs. Is that a concern of only mine, or do some of you 
share that concern, as well? Because clearly, there have been 
some breakdowns in that area.
    Mr. Dinkins. It definitely, sir, has been an on-going 
process. But now, we have actually increased the number of 
designated school officials, as well. I believe that they are 
carrying that responsibility, the legitimate ones. Because 
there are some institutions that are created just literally--
legitimately for fraud purposes. You know--but those reputable 
ones that we are not criminally investigating actually, I 
think, do take that responsibility very seriously. We have a 
very continuous dialogue with them, on-going, each day.
    Mr. Stewart. So you are comfortable that if someone were 
here on a student visa, and they were expelled from school or 
withdrew from school for some reason, that that information 
would be passed on and that would be noticed now? Is that your 
testimony? That we have made progress in that?
    Mr. Dinkins. Absolutely, sir.
    Mr. Stewart. Okay. All right, thank you again. Madam 
Chairwoman, I yield back.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman now recognizes the gentleman from Florida, 
Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Madam Chairwoman. Thank you for 
allowing me to participate again today. I have been focusing on 
this student visa issue, closing these loopholes, since I have 
been in Congress. I have some questions for the panel, if I 
may.
    What can we do to ensure that foreign students abide by the 
terms of their student visas? That if foreign students leave 
school for any particular reason, they are not followed? Again, 
not--there is no oversight. We want to make sure that they do 
not remain in the country. Because I understand there are over 
7,300, at least, overstays per year. I also want to focus on 
the interview process.
    My good friend talked about that. How many--what percentage 
of these applicants are interviewed as far as the screening 
process over there? I would like to know that. How 
comprehensive are the interviews?
    Mr. Dinkins. So I will work backwards in your question. So 
the interviews--so right now, and this is--I mean, this is 
great progress, and I am very excited about it. Is the fact 
that as when the State Department went to electronic visa, and 
with Patriot what we will be able to do with the new automated 
system, so they apply. They are sitting on their couch or in a 
cave in Afghanistan or wherever they may be. They hit 
``submit'' on a visa application, that is gonna be transmitted 
through the system over CBP's National targeting center, where 
ICE and CBP sits.
    That information is gonna be churned way before--months, in 
some cases--before the State Department even sets up that 
interview. So we will have that lead time well in advance so if 
there--you know, if there is a red light because they are a 
known suspect, and there is no sense of doing an interview 
unless maybe for law enforcement purposes to gather some 
intelligence. But if it is a green light, they still have to 
sit down--every single one of those students sit down--
someplace, except for, as was mentioned, if they are young--you 
know, children or very senior individuals.
    They are gonna sit with an interviewer, and it is a pretty 
in-depth process. So that is the process as far as validating 
that they are coming here for legitimate purposes. Now, I do 
want to point out, as the economy and, you know, it is probably 
one of the factors. But I also do believe that some aggressive 
enforcement has played a role in this. Is that what we are 
seeing is that the number of out-of-country--so those people 
who may have not left exactly on time, but they have still 
departed when we start screening it--that number of folks has 
started increasing, that percentage is increasing.
    So we definitely have deincentivized, short of using, you 
know, the stick and going out and putting cuffs on them, them 
remaining in the country. So the numbers of people that we are 
getting that may stay over when they are supposed to, but 
ultimately do leave, is a growing number of population.
    Mr. Bilirakis. Could I ask you for maybe the contents--you 
are at liberty to give us the contents--of maybe an example 
interview? Tell me how long are those interviews, time-wise, in 
the average, would you say?
    Mr. Dinkins. I couldn't say how long exactly, on the 
average. But they are several minutes, at least, and longer. 
Because they sit down, they have to go through and validate the 
stuff on there that they have the economical--and it is with a 
consulate officer that they do the interviews with. So they 
have to validate that they have the economic means to actually 
sustain their--themselves at school and in the United States 
and so forth.
    So it is--I don't want to say it is a full-fledged 
background investigation, but it is definitely an in-depth 
interview that they go through with a consular office, who is 
trained to identify potential fraud.
    Mr. Bilirakis. Okay. You say that all applicants are 
interviewed, with the exception of the younger children. Is 
that correct?
    Mr. Dinkins. Yes, sir.
    Mr. Bilirakis. Okay. Let me ask you, with regard to the 
visa security units, I understand that there are nine. However, 
the State Department and Homeland Security have identified 50 
high-risk areas in the world. I believe we have, currently, 19 
in 15 countries. But I understand 11 of the top 20 posts are 
not covered. What is--why are they not covered? Why haven't we 
made more progress with regard to visa security units? How many 
have we put in place in the last couple of years?
    Mr. Dinkins. That is another good questions, is some of the 
highest-ranking threat locations that are identified between 
ICE and on the State Department for visa-issuing posts are in 
parts of the world where they are very geographically-
challenged because of space, because of the security 
conditions. They are not building new embassies, and so forth. 
So in many of those cases, there is simply no space for us to 
actually get into to do it.
    With that said--as we are continuously going and chipping 
away at those top priorities as we have gotten new money. I 
believe that we opened up three this year, and we have plans to 
open up another one. So we will have 20 soon. But with Patriot, 
we are gonna be able to do with what we are doing with those 
pre-deployed people and actually expand that out. So I have, 
right now, 75 international offices, I believe it is, in 48 
different countries.
    With Patriot, no matter where you are applying it--right 
now, our visa security, our special agents, are running those 
names manually. We are still doing the background and running 
it in the back, through the automated Patriot system for 
validation. But they are sitting down and bringing those 
people's names in. Soon, no matter in the entire world where 
you are at and you submit that application, we basically have 
the first line of visa security defense.
    Then the reason we will need people overseas will be to 
coordinate doing those interviews. Because now that we know 
that Jim Dinkins, a suspected terrorist, has applied to come 
into the United States for a visa the question shouldn't end 
there. The question should be, well, what is the plans for Jim 
Dinkins coming to the country. We need boots on the ground to 
be able to help turn that. Because if we just say no to Jim, no 
to Mr. Wagner--and they will eventually find somebody that we 
don't know about if we don't actively look at the reason why 
they are actually trying to get to the country in the first 
place.
    What type of plot, what type of criminal scheme they are 
doing. So we are covering the blanket much broader with a 
computer solution which will be able to give a red light, green 
light right off the bat. Then the yellow lights are the ones 
that we are gonna actually have to have boots on the ground to 
deal with.
    Mr. Bilirakis. Madam Chairwoman, thank you very much. I 
want to yield back. Can somebody, maybe someone else on the 
panel, address these issues? Or maybe we can wait until the 
second round of questions.
    Mrs. Miller [continuing]. So got to go.
    Mr. Bilirakis. All right, and----
    Mrs. Miller. Yes, we are gonna go to a second round here.
    Mr. Bilirakis. Okay. Thank you so much. I yield back.
    Mrs. Miller. Thank you. Thank you.
    Mr. Bilirakis. Thanks for allowing----
    Mrs. Miller. We are gonna obviously go to a second round of 
questions here. We appreciate the witnesses being here. 
Obviously, there is a huge amount of interest in this.
    I have to ask a--perhaps a naive question. But I am 
listening to all of this, and just trying to understand. When 
people actually get a visa--and somebody talked about the 
electronic visas, what is going on with that. So your visa is 
expiring. How do we notify, or do we even notifiy, people that 
their visa is expiring? Or we just leave it up to them to 
notify us? I mean, and if that is so, it would seem to me that 
everybody that gets a visa we would require them to have an e-
mail address, for instance.
    Or we would just e-mail them, and say, look, your visa is 
about to expire. Tell us, you know, how--when do you expect to 
be leaving here? Are you gonna be leaving on time? Or if not, 
recognize we are watching you. I know it sounds ridiculously 
simple, but how do we tell people, if we do at all?
    Mr. Dinkins. Ma'am, I am not aware if the State Department 
has any type of communication with them on that, on the issuing 
date. Other than when they get it issued and they know that 
they have X amount of time in the country. Then when they get 
admitted, then they know that is reinforced at the port of 
entry upon admittance. But I am not for sure if the State 
Department has any type of communication with them as far as 
that it is a--I don't know of any.
    Mrs. Miller. I am not aware of any either. So it just 
would--I mean, it seems, like I say, ridiculously simple. But 
wouldn't it seem that we would at least e-mail then and say: 
Hey, time is up, and apparently you are gonna be leaving. Or if 
not, you better let us know, or, we are watching you. Anybody 
else have a comment on that?
    Mr. Wagner. So as part of the administration process at the 
port of entry, I mean, the visa has a date on it. We will grant 
them administration for a prescribed period of time, depending 
on the type of visa. A visa waiver traveler is gonna get 90 
days. A person with a visa, depending on the type of visa and 
the purpose and their intent, or their visit here, we are gonna 
stamp the passport and write down the admit-until-date.
    Some of those admit-until-dates are the duration of status, 
like in the case of, you know, certain visa types: While they 
are in school, they are in status, and it gets a little more 
complex. But, you know, we are generally going to look at, and 
make our decision based, at the port of entry. Do we feel this 
traveler is going to comply with the terms of their admission 
and what they are saying they are doing, and what that visa is.
    But we are gonna grant their administration date until the 
date that we think they are gonna take care of what their 
purpose of their intent here. But there is a date on that visa.
    Mrs. Miller. Okay. I guess I am just throwing this out 
here. There seems to be such an easy, at least first step of 
trying to fix some of this. There has got to be communication 
on both sides. Just requiring anybody to get the visa, to have 
an e-mail address so that we can keep in constant contact with 
them without chasing them down if they move post offices, what 
have you.
    I would like to ask a question of Ms. Gambler, who has been 
sitting there. We think about a million visa overstays that are 
here currently, with the backlog, approximately, the number, 1 
million unmatched records, as we call it. From the Government 
Accountability Office, what is your observation on the 
accountability of that kind of a number?
    Ms. Gambler. As we reported in our statement, DHS has not 
yet assessed that set of unmatched arrival records to look for 
trends in those records. We are continuing to analyze that set 
of records to identify additional trends, or categories. But it 
certainly might make sense for DHS to have a look at the 
different categories of populations that make up those records. 
Because that kind of information could help them better target 
their efforts to identify overstays and take enforcement 
action.
    Mrs. Miller. Thank you.
    In the interest of time, I will now recognize the 
gentlelady from Texas.
    Ms. Jackson Lee. Madam Chairwoman, I thank you. As 
indicated to the witnesses, I appreciate you. I may be stepping 
away. I am right in the middle of a mark-up in the Judiciary 
Committee, and being called for my amendments. But both of us, 
the Chairwoman and myself, agree that this is an enormously 
vital hearing and will generate, I think, a positive response 
for what our tasks are before us.
    I want to be very clear on the record that I do not see, or 
foresee, this being an obstacle to comprehensive immigration 
reform. But I do see the urgency of picking this up and quickly 
moving to give comfort to the American people, to give a 
framework, and to give an answer to this committee about how we 
tackle this now and on-going. I want to ask Mr. Dinkins, we say 
about 40 percent of the persons that are unlawfully present 
have overstayed their visa.
    About--and that these are millions of individuals. What 
would you estimate are the numbers that would likely pose a 
security threat?
    Mr. Dinkins. Very small, ma'am. We get those numbers--those 
in. So, for example, we vetted so far this year about 480,000 
names of potential new visa overstays. Of that 480,000 names, 
about 3,000 of them actually hit a potential National security 
or public safety threat. So----
    Ms. Jackson Lee. You have the--of those 3,000, do they get 
in a separate area? Do they get sent out to local law 
enforcement, fusion centers, joint terrorism task force, et 
cetera?
    Mr. Dinkins. Yes, those actually get criminal cases opened 
up on each and every one of those in our field offices to go 
track them down and arrest them.
    Ms. Jackson Lee. All right. Let me--thank you very much. On 
CBP, you--will CBP be working with DHS and S&T to evaluate 
technology as efficiently as possible in order to expedite the 
eventual deployment of a biometric exit? This is for you, Mr. 
Wagner. Are you all in the midst of really getting to the nuts 
and bolts to get the kind of technology that is necessary?
    Mr. Wagner. Yes, we are out there currently baselining the 
existing operations and looking at the existing exit, or 
outbound, processes at the airports with S&T and looking at 
what are those logistics and what are those operational 
capacities and constraints on how we would do it. Then we will 
set up a demo lab to look at the current states of biometric 
technology and how we can fit that into the existing logistics 
or right existing constraints to find out: What is the best 
biometric to deploy out there to capture the exiting 
biometrics?
    Ms. Jackson Lee. Mr. Evans--I am sorry, Mr. Lyons, how fast 
can this pace go?
    Mr. Lyon. Ma'am, it is--I think it is going at the pace 
that was in our plan that was released last year. Then----
    Ms. Jackson Lee. What is your plan--when do we think we are 
gonna be there?
    Mr. Lyon. As in the plan, I believe that we are looking at 
fiscal year 2016. Like Mr. Wagner said, they are setting up the 
lab to allow them to do lab tests. Then from there, they can 
actually then start doing some operational pilots.
    Ms. Jackson Lee. Is there a resource question impacting 
your time frame? Money question impacting how fast you can 
move?
    Mr. Lyon. I would have to defer that to----
    Ms. Jackson Lee. Mr. Wagner?
    Mr. Lyon [continuing]. To Mr. Wagner.
    Mr. Wagner. Yes, because it will be expensive to deploy----
    Ms. Jackson Lee. All right, so let me--I am going to do, in 
the interest of time, too. Let me conclude. Gentlemen, I got 
your answers. I am not cutting you off. I just thank you very 
much for your answers. What I see here is that you have laid 
out the problem and the answer, or the answer and the problem. 
You have laid out that you are working--and I would say this, 
Madam Chairwoman. First of all, I think we should have some on-
going briefings, continued hearings. Probably briefings may be 
faster.
    I would like to get an updated time line on what you think 
can be expedited that would move you further in from 2016; 
further going this way. Meaning 2014, 2014-\1/2\, et cetera. 
The other thing that I think is very important, I am gonna put 
on the record. Our airlines have to be part of this effort. 
This is a business, I understand it, they make profits. But the 
United States Government is providing them with their 
infrastructure of security.
    I do believe, with all of our Constitutional protections, 
we should look at a framework that would fit the United States, 
Madam Chairwoman that would be an exit infrastructure that 
would not infringe upon our Constitutional values and 
principles. I believe a briefing with the airlines would be 
very helpful, try and understand what their issue is. I would 
also ask for any of you to provide me with any work that you 
have done with Israel in looking at Israel's system of exit 
visas.
    I would like an answer in writing on that, Madam 
Chairwoman. I yield back.
    Mrs. Miller. I thank the gentlelady.
    The Chairwoman recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman. Thank you guys for 
your service. But I must say I am alarmed by something I just 
heard when the Chairwoman was asking you a question. We are 
relying on the honesty of visa holders to look at that date and 
say, ``Oh, no. I got to get out of here by March 31.'' We are 
not notifying them? We don't--you know, after, say, June 31 go, 
``We gave him a little bit of a grace period. Let's go knock on 
their door.''
    We are relying on them to understand--I mean, my license 
expires on my birthday, and I still let it go beyond the 
expiration date before I go get it renewed. Wow. Did I 
understand you right, that we are relying on them to look at 
that date?
    Mr. Wagner. It is an assessment of the traveler to make a 
determination are they going to comply with what their exit 
date is intended. It may be a question of looking at their 
airline ticket and their return ticket for when they intend to 
leave. It may be a case of, you know, visa waiver travelers 
restricted to 90 days here. We ask them where they are going, 
why they are going, what they are gonna be doing. We make that 
assessment and we make that call.
    If we feel they are not going to comply with the terms of 
that administration or that visa we are not going to admit them 
to the United States. We are going to restrict them in how long 
they can be here. But by and large, yes, you are correct. It is 
up to that traveler, once they are released from that port of 
entry and admitted, if their plans change there are mechanisms 
where they can go and engage with citizenship and immigration 
services to extend the terms of their administration or they 
can change status.
    But by and large, we are not following each one of these 
people around to ensure that they do actually comply with it. 
We--a lot of it is left up to them. We do stamp their passport 
and tell them which date they are admitted until. But you are 
correct, in that by and large it is up to them.
    Mr. Duncan. Let me ask you this, then. How do we know when 
they leave the country?
    Mr. Wagner. So if they fly out by commercial air----
    Mr. Duncan. You are looking at manifests----
    Mr. Wagner. We will get the manifest.
    Mr. Duncan [continuing]. For either travel by boat, or 
manifest. In Canada, we have got some data-sharing. I read 
about that, but----
    Mr. Wagner. Correct. So that information will feed into the 
arrival-departure information system. If it is then matched up, 
and we find that the person did overstay and the person is out 
of the country, an alert will be placed in our database. So 
either the Department of State, when the person applies for a 
visa again----
    Mr. Duncan. What if the name is put in differently?
    Mr. Wagner. If it--well, if it----
    Mr. Duncan. What if they leave out a middle initial or the 
name is spelled differently?
    Mr. Wagner. It depends on the variations and how wide our 
algorithms are casting a search to find up those names. When 
they apply for ESTA, when we get the APIS manifest from the 
airline that this person's intending to travel, if we see they 
are a prior overstay they are going to be inadmissible to the 
United States. We are going to call that airline and recommend 
they don't board that person because they are gonna have to fly 
him right back.
    If we have our immigration advisory on-site at those 11 
locations overseas, working at the gate with the airline 
personnel as people board, they are going to wait for that 
person to check in, and interview them, and march them over to 
the airline desk and tell them we do not recommend this person 
flies because they are more than likely inadmissible to the 
United States because they overstayed previously, or we don't 
feel this person is going to comply with the terms of the 
admission. But it is a matter of collecting that exit 
information, piecing it back together, placing an alert in our 
system so our various stages we can catch these people and 
prevent them from coming back.
    Mr. Duncan. I appreciate what you are trying to do there. 
The Department of State is involved in this. So the gentleman 
said a minute ago--Mr. Lyon said about the Department of State 
not communicating with you guys as well with--and notification 
of visa overstay. So I think we got some issues here. I want to 
shift gears.
    Ms. Gambler, do you agree with the assessment of the Pew 
Institute? I think in 2006 they said there were about 4\1/2\ 
million overstays here. Do you think that number is accurate?
    Ms. Gambler. Congressman, we have not specifically assessed 
the reliability of that estimate. I think what will be telling 
is when DHS reports overstay estimates at the end of this year, 
which they have announced plans to do so. I think then we will 
need to look at the methodology that DHS is using to report 
those overstay estimates and what, if any, limitations they 
identify with that methodology.
    Mr. Duncan. What do you project the number to be, today, 
2013?
    Ms. Gambler. Congressman, GAO is not in a position to make 
an estimate because DHS does not have--or DHS itself has not 
reported estimates of overstay rates. We previously identified 
challenges the reliability of the data that they used to 
identify potential overstays. That data would feed into their 
estimating of overstay rates.
    Mr. Duncan. Right. Mr. Wagner, you are--DHS currently 
collects the information regarding the number of visa overstays 
from each country. However, to date it has refused to share 
such information with Congress. They say they are gonna share 
this by the end of the year. Why hadn't they released the 
information? What are we waiting on here?
    Mr. Wagner. I believe the offices that are working on that 
information are still validating the accuracy of it and piecing 
together people that might not have just arrived and departed 
via commercial air. But some of the more complexities I 
discussed earlier about why someone might not have a readily 
apparent departure from the United States, and going through 
those different systems and finding if there is a departure 
record. Or if there is a legal way that they adjusted their 
status and they are still here legally.
    Or, in the case if they are not here, you know, if they are 
here but they are in overstay, in fact. So it is a matter of 
verifying the accuracy of that information and making sure it 
is complete and accurate before it is released.
    Mr. Duncan. Thank you. Madam Chairwoman, when you fly to 
Mexico they give you a little card that you have to keep with 
your passport. When you leave the country, you turn that back 
in and they keep that. It seems like a fairly simple system to 
me.
    I yield back.
    Mrs. Miller. I thank the gentleman.
    For the last questions, for Mr. Barletta, from 
Pennsylvania.
    Mr. Barletta. Thank you, Madam Chairwoman. According to the 
Department of Justice, 10 percent of individuals who have been 
convicted of terrorism, terrorism-related charges, have entered 
the United States legally and overstayed their visas. Unless 
this is addressed, I see this as a major stumbling block to 
immigration reform. We are talking about giving amnesty to 11 
million people in the country illegally, and 40 percent of them 
overstayed their visas and are a possible threat to our 
National security.
    Now, ICE devotes approximately 3 percent of its resources 
to investigating visa overstays. Federal law requires that DHS 
report overstay estimates, but DHS has not done this since 
1994. Mr. Dinkins, being the fact that 40 percent of illegal 
immigrants are visa overstays, and the Morton memorandum only 
prioritizes criminal aliens for deportation, so how can this 
administration claim that they are serious about securing our 
borders?
    Mr. Dinkins. So we have--there are multiple areas that we 
prioritize our work. As you mentioned, criminal aliens is 
definitely our priority to remove. But we are dealing with the 
confines of funding. But not just for ICE and not for special 
agents and deportation officers and so forth. We are dealing 
with a system. The system can only handle about 400,000 that we 
put into a year.
    We are trying to make sure that those 400,000 make up the 
greatest threat for public safety and National security and 
border security that we can, to make sure that we are not 
collapsing the system to make it even, you know, less efficient 
than what it is designed to do.
    Mr. Barletta. You know, without enforcement, our laws mean 
nothing. I am very concerned that what we are doing is really 
just creating a paper tiger. I will give the definition of a 
paper tiger. It is something that gives the appearance of 
strength, but is actually weak and ineffective. Thank you.
    I yield back.
    Mrs. Miller. I thank the gentleman. Again, I want to thank 
the witnesses. It has been an excellent hearing, I think. We 
have got a lot of good information and have a lot of ideas from 
a Congressional standpoint of things that we may want to be 
legislating to improve our visa system. I appreciate all of 
your service to the country as we work toward our common goal 
of securing the homeland.
    Pursuant to committee rule 7(e), the hearing record will be 
held open for 10 days. Without objection, the committee stands 
adjourned.
    [Whereupon, at 11:53 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
